<html>
<title> - GREAT LAKES RESTORATION MANAGEMENT: NO DIRECTION, UNKNOWN PROGRESS</title>
<body><pre>[Senate Hearing 108-201]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-201

   GREAT LAKES RESTORATION MANAGEMENT: NO DIRECTION, UNKNOWN PROGRESS

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
    THE FEDERAL WORKFORCE AND THE DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs


88-934              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
     Joyce Rechtschaffen, Minority Staff Director and Chief Counsel
                      Amy B. Newhouse, Chief Clerk

                                 ------                                

   OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                  GEORGE V. VOINOVICH, Ohio, Chairman
TED STEVENS, Alaska                  RICHARD J. DURBIN, Illinois
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        FRANK LAUTENBERG, New Jersey
JOHN E. SUNUNU, New Hampshire        MARK PRYOR, Arkansas

                   Andrew Richardson, Staff Director
   Marianne Clifford Upton, Minority Staff Director and Chief Counsel
                      Cynthia Simmons, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Voinovich............................................     1
    Senator Durbin...............................................     4

                               WITNESSES
                        Wednesday, July 16, 2003

Hon. Mike DeWine, a U.S. Senator from the State of Ohio..........     7
Hon. Carl Levin, a U.S. Senator from the State of Michigan.......     9
John Stephenson, Director, Natural Resources and Environment, 
  U.S. General Accounting Office.................................    12
Robyn Thorson, Region III Director, U.S. Fish and Wildlife 
  Service........................................................    13
Thomas V. Skinner, Region V Administrator, and National Program 
  Manager for the Great Lakes, U.S. Environmental Protection 
  Agency.........................................................    15
Col. William E. Ryan, III, Deputy Commander, Great Lakes and Ohio 
  River Division, Army Corps of Engineers........................    17
Timothy R.E. Keeney, Deputy Assistant Secretary for Commerce for 
  Oceans and Atmosphere, National Oceanic and Atmospheric 
  Administration, U.S. Department of Commerce....................    19
Dennis L. Schornack, Chairman, U.S. Section, International Joint 
  Commission.....................................................    27
Hon. Susan Garrett, Illinois State Senator, District 29..........    29
Christopher Jones, Director, Environmental Protection Agency, 
  State of Ohio, on behalf of the Great Lakes Governors..........    31
Margaret Wooster, Executive Director, Great Lakes United.........    33

                     Alphabetical List of Witnesses

DeWine, Hon. Mike:
    Testimony....................................................     7
    Prepared statement...........................................    43
Garrett, Hon. Susan:
    Testimony....................................................    29
    Prepared statement...........................................   228
Jones, Christopher:
    Testimony....................................................    31
    Prepared statement...........................................   233
Kenney, Timothy R.E.:
    Testimony....................................................    19
    Prepared statement...........................................   181
Levin, Hon. Carl:
    Testimony....................................................     9
    Prepared statement...........................................    47
Ryan, Col. William E., III:
    Testimony....................................................    17
    Prepared statement...........................................   176
Schornack, Dennis L.:
    Testimony....................................................    27
    Prepared statement with an attachment........................   190
Skinner, Thomas V.:
    Testimony....................................................    15
    Prepared statement...........................................   164
Stephenson, John:
    Testimony....................................................    12
    Prepared statement with an attachment........................    50
Thorson, Robyn:
    Testimony....................................................    13
    Prepared statement...........................................   161
Wooster, Margaret:
    Testimony....................................................    33
    Prepared statement...........................................   237

                                Appendix

Michael J. Donahue, Ph.D., President/Chief Executive Officer, 
  Great Lakes Commission, prepared statement with an attachment 
  entitled ``Restore the Greatness!''............................   240
David Dempsey, Policy Advisor, Michigan Environmental Council, 
  prepared statement.............................................   258
Response to a factual question regarding the recent hearing from 
  the U.S. Fish and Wildlife Service to Senator Voinovich, dated 
  Aug. 22, 2003..................................................   262
Response to question for Mr. Skinner.............................   264
Responses to questions for Col. Ryan.............................   266
Responses to questions for Mr. Keeney............................   268
Responses to questions for Mr. Schornack.........................   270
Response to question for Mr. Jones...............................   286

 
   GREAT LAKES RESTORATION MANAGEMENT: NO DIRECTION, UNKNOWN PROGRESS

                              ----------                              


                        WEDNESDAY, JULY 16, 2003

                                       U.S. Senate,
                Oversight of Government Management, the Federal    
            Workforce, and the District of Columbia Subcommittee,  
                        of the Committee on Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. George V. 
Voinovich, Chairman of the Subcommittee, presiding.
    Present: Senators Voinovich, Durbin, and Coleman.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. The hearing will come to order. Good 
morning and thank you for coming. We are here today to discuss 
what I believe is one of the most pressing environmental issues 
facing our Nation--restoration of the Great Lakes.
    This hearing is entitled, ``Great Lakes Restoration 
Management: No Direction, Unknown Progress.'' Specifically, the 
hearing will focus on a recent report by the General Accounting 
Office concerning the Federal and State environmental programs 
operating in the Great Lakes basin and the funding devoted to 
them. This GAO report evaluates the restoration strategies used 
and how they are coordinated and assesses the overall 
environmental progress made in the basin restoration effort.
    Thirty-seven years ago, when I saw firsthand the effects of 
pollution on Lake Erie and the surrounding region, I knew that 
we needed to do something to protect our environment and the 
Great Lakes. At the time, Lake Erie was suffering from 
eutrophication and was known worldwide as a dying lake. It was 
the poster child for a dying lake. The decline was heavily 
covered by the media and became an international symbol. I 
remember British Broadcasting coming to Ohio and doing a 
documentary on it.
    I made a commitment then, as a State legislator, to do 
everything possible to stop the deterioration of Lake Erie and 
wage what I refer to as the ``Second Battle of Lake Erie,'' to 
reclaim and restore Ohio's Great Lake.
    I have continued this fight throughout my career, as county 
commissioner, State legislator, Lieutenant Governor, Mayor of 
Cleveland, Governor of Ohio, and now U.S. Senator. I consider 
my efforts to preserve and protect Lake Erie and all of the 
Great Lakes to be among the most significant of my career, and 
for that matter, of my life.
    Lake Erie's ecology has come a long way since the mid-
1960's. Today, people can enjoy Lake Erie. It is a habitat to 
countless species of wildlife, a vital resource for the area's 
tourism, transportation, recreation industries, and the main 
source of drinking water for many Ohioans. Lake Erie is 
currently Ohio's greatest natural resource. Together, the Great 
Lakes make up the largest body of fresh water in the world, 
providing 40 million people in the United States and Canada 
with drinking water.
    Although we have made progress in our restoration efforts, 
there is much more that needs to be done to improve and protect 
the Great Lakes. I emphasize that this is an urgent need that 
deserves and demands a well-coordinated effort, one that cannot 
be met by simply adding individual programs to those that 
already exist.
    The GAO made it clear in its report--released earlier this 
year, entitled ``An Overall Strategy and Indicators for 
Measuring Progress Are Needed to Better Achieve Restoration 
Goals''--that the number of programs is not the problem. 
Rather, the report states that while there are many Federal, 
State, and local programs, restoration of the Great Lakes is 
being hindered because there is little coordination and no 
unified strategy for those activities.
    Furthermore, the GAO found that although more than $1 
billion has been spent on restoration efforts on the Great 
Lakes since 1992, it is not possible to assess comprehensive 
restoration progress because overall indicators for the Great 
Lakes do not exist.
    I do not know which is worse, the fact that GAO came to 
these conclusions or that I have not found anyone that is 
surprised by them.
    The GAO recommended that the Environmental Protection 
Agency oversee these efforts to ensure that the programs are 
coordinated, that there is a comprehensive Great Lakes 
strategy, and that environmental indicators are developed to 
measure restoration progress.
    This week, I joined Senators DeWine and Levin in 
cosponsoring the Great Lakes Environmental Restoration, 
Protection, and Recovery Act, which is S. 1398. This bill 
responds to the GAO report and to my long-held concerns about 
Great Lakes restoration. In short, this bill moves us closer to 
our goal of restoring the Great Lakes by providing funding and 
promoting coordination. Expanding on the Lake Erie Water 
Quality Index that I released in 1998 as Governor of Ohio, the 
bill directs the EPA to create a series of indicators of water 
quality and other factors for all of the Great Lakes.
    Restoring the Great Lakes could be the greatest legacy any 
of us will leave on this earth. We must work hard to ensure 
that the progress we have made continues.
    As many of you know, I was intimately involved in the 
creation of the Comprehensive Everglades Restoration Plan. As 
Chairman of the Transportation and Infrastructure Subcommittee, 
of the Committee on Environment and Public Works, I was proud 
to be a sponsor of the Water Resource Development Act of 2000, 
which approved this ambitious plan. Earlier this year, I spoke 
at the 11th Annual Everglades Coalition Conference in Florida. 
I told them--let me quote from my statement--``What I would 
love to do as Senator is to be able to put the same kind of 
coalition together that you have been able to do for the 
Everglades for the Great Lakes.'' This is my dream, to put 
together a comprehensive restoration plan for the Great Lakes.
    Right now, we have the mayors getting together. That is 
wonderful. The governors are developing priorities and 
objectives, a coalition of groups--the Great Lakes United--have 
put together a restoration agenda. And we here in Congress have 
put forth proposals earlier this week.
    However, the fact of the matter is that if we are going to 
get something done, we need to create a symbiotic relationship 
with all of the public and private players in the United States 
and Canada in order to develop a comprehensive restoration plan 
for the Great Lakes. I am most interested in hearing from the 
witnesses today on how we can get this done.
    I also look forward to hearing from all of our witnesses 
about this GAO report, and to hearing their recommendations for 
the current restoration programs in the Great Lakes, as well as 
possible next steps to address this problem. I want to hear 
your views on our new legislation, S. 1398. We have an 
impressive lineup of witnesses this morning and I look forward 
to a very informative discussion.
    I am pleased today to welcome two of my friends and 
colleagues, Senator Mike DeWine, the senior Senator from Ohio, 
and Senator Carl Levin of Michigan, who will testify first this 
morning. I commend them on their excellent leadership as co-
chairmen of the Great Lakes Task Force. I look forward to their 
valuable input on this subject, especially since they requested 
the GAO report we are discussing today, and I thank you both 
for doing that because that puts us in a framework where we can 
move.
    On our second panel, we will hear from people who conducted 
the study at GAO and from several Federal agencies that are 
involved programmatically with the Great Lakes, including the 
U.S. Fish and Wildlife Service, the U.S. Environmental 
Protection Agency, the U.S. Army Corps of Engineers, and the 
National Oceanic and Atmospheric Administration.
    Tom Skinner is here, EPA's Region V Administrator, who I 
had a chance to meet with yesterday, and I look forward to his 
testimony on the role of the Great Lakes National Program 
Office in managing the various environmental programs.
    And the third and final panel includes the Chairman of the 
United States Section of the International Joint Commission, 
Dennis Schornack, whom I have known for many years. He worked 
for Governor Engler in Michigan. I also welcome his 
counterpart, the Chairman of the Canadian Section, Herb Gray. 
Herb, I am very happy that you are here today. I know that Mr. 
Gray is aware that the subject of restoration of the Great 
Lakes has been a burning issue for the U.S. and Canadian Inter-
parliamentary Group that I have had the pleasure of 
participating in over the past years, along with Senator 
DeWine.
    Also on the third panel is Illinois State Senator Susan 
Garrett, and Chris Jones, Director of the Ohio Environmental 
Protection Agency, who will testify on behalf of the Council of 
Great Lakes Governors.
    And finally, Margaret Wooster from Great Lakes United will 
testify. Great Lakes United is a U.S. and Canadian coalition 
dedicated to preserving and restoring the Great Lakes. Last 
August, I held an Environment and Public Works Committee field 
hearing in Cleveland, Ohio, that examined the increasingly 
extensive oxygen depletion, or hypoxia, in the central basin of 
Lake Erie. Great Lakes United testified at that hearing and was 
extremely helpful in shedding some light on the problem and in 
offering possible solutions.
    Yesterday, I had the opportunity to meet with Ms. Wooster 
about a recent report that Great Lakes United released on how 
to clean up the Great Lakes. I look forward to hearing more 
about those recommendations for restoration in her testimony 
today.
    I now yield to the Ranking Member of the Subcommittee, my 
good friend, Senator Durbin from Illinois. Senator, a lot of 
the activity by the governors is centered in Illinois through 
the leadership of Governor Daley and I would appreciate hearing 
from you today.
    I am going to remind any of the other Senators that show up 
today that I am going to request that they submit their 
statements in writing so that we can get it in the record and 
get on with the witnesses.
    Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thanks, Mr. Chairman. Thanks for your 
leadership on this hearing and I would like to have my entire 
statement be made part of the record. At this point, I would 
like to summarize it very quickly.
    I would like to salute my colleagues, Senators Carl Levin 
and Mike DeWine. I think what we have demonstrated here is a 
bipartisan effort to deal with a national treasure, our Great 
Lakes.
    My statement outlines the history of the development of the 
City of Chicago and the expansion of the Nation's economy 
through Lake Michigan. Several things I would like to note 
publicly. Congress recognized the importance of Chicago's 
harbor, appropriating $247,000 for its development by the end 
of 1844. By the late 1800's, the people of Illinois saw the 
great economic potential of Lake Michigan, but also saw 
problems. Sewage flowing through the Chicago River into Lake 
Michigan caused serious public health concerns.
    In 1887, Chicagoans decided to embark on their first Great 
Lakes restoration effort. They boldly dared to reverse the flow 
of the Chicago River to stop the sewage in that body of water 
from flowing into Lake Michigan, their drinking water source. I 
have a place in Chicago overlooking Lake Michigan. I can still 
look out every morning and see the water intakes that were 
built in that era so that they could go further offshore to 
draw the water, which might be a little cleaner and purer, for 
the people to drink. The Metropolitan Sanitary District of 
Greater Chicago successfully reversed the flow of the Chicago 
River by 1900 and alleviated chronic pollution problems.
    A hundred years later, Lake Michigan, as many of the Great 
Lakes, remains a vital economic engine for my State and 
surrounding States, but it has terrific environmental 
challenges. It is the largest body of fresh water entirely 
within the boundaries of the United States. This Great Lake 
extends along 63 miles of shoreline in Illinois, provides 
drinking water for six million people in Illinois. The lake 
also continues to serve as a great avenue for commerce, and 
despite all of this, Lake Michigan is in trouble.
    Illinois has Lake Michigan fish consumption advisories due 
to unhealthy levels of mercury, chlordane, and PCBs. The Lake 
Michigan area at Waukegan is contaminated due to industrial 
activity throughout the last century. There are several 
Superfund sites in the area, some of which have been cleaned up 
to a large extent, but a great deal of the work still remains 
to be done. And, of course, there is a great concern about the 
invasive fish species, such as the Asian carp.
    We need to be bold in addressing this, and I salute my 
colleagues for their leadership in this legislation responding 
to the GAO report which they requested. Those who reversed the 
flow of the Chicago River knew that bold steps were necessary 
to reverse the trend of environmental degradation of our 
precious Great Lakes. Thanks to similar efforts, our ecosystems 
in our country have begun to be restored, including the 
Chesapeake Bay and the Florida Everglades. It is interesting to 
me that the challenge has been made that we who live near the 
Great Lakes have to show the same concern as our colleagues 
have shown when it comes to the Florida Everglades and 
Chesapeake Bay. I accept that challenge, and I think this 
legislation responds to it.
    Yet, despite all of our good intentions and all of our 
ambitions, the GAO makes it clear we don't have our act 
together. State and Federal agencies and local agencies of 
government just are not on the same page, talking about the 
future of the Great Lakes. I think this legislation will help 
change this. This legislation enhances the coordinating 
functions of the EPA. Tom Skinner is here, my friend from 
Region V in the State of Illinois. He understands that. State 
Senator Susan Garrett is here, who represents a district right 
on Lake Michigan, and she understands that, as well, and I am 
glad that she is going to be adding testimony.
    This is a great starting point. I look forward to hearing 
further thoughts from our panelists. Thank you, Mr. Chairman.
    [The prepared opening statement of Senator Durbin follows:]
              OPENING PREPARED STATEMENT OF SENATOR DURBIN
    I want to thank my colleague and fellow Great Lakes Senator, George 
Voinovich, for calling this important hearing today and I also would 
like to welcome two of my colleagues and constituents, Susan Garrett 
and Tom Skinner.I74Lake Michigan's Role in Illinois History
    The history of Chicago, the largest American city that borders the 
Great Lakes, is directly linked to Lake Michigan.
    The Miami Indians of the Illiniwek Tribe, settled in a village they 
called ``Che-cau-gou'' on the southern extremity of Lake Michigan in 
the 1640's.
    By 1682, French explorer La Salle claimed the Mississippi River 
Valley for France and called the portage he crossed from St. Joseph 
River in Michigan to the Illinois River the ``Chicago Portage,'' after 
the Miami Indians' name for the region.
    Chicago Portage became an important point linking Lake Michigan to 
several rivers in the region.
    In 1795, the U.S. gained control of a tract of land at the mouth of 
the Chicago River, which became the site for Fort Dearborn.
    Chicago, in turn, rapidly became the leading port in the West.
    Between 1833 and 1839 the annual average import trade for Chicago 
was $1.5 million and the export trade was $350,000.
    Clearly, Lake Michigan was one of the chief economic engines behind 
the development of Chicago and the rest of Illinois.
    Congress, recognizing the importance of Chicago's harbor, 
appropriated $247,000 for its development by the end of 1844.
    By the late 1800's, the people of Illinois experienced the effects 
of environmental degradation of Lake Michigan: Sewage that flowed 
through the Chicago river into Lake Michigan caused plagues of typhoid 
fever, cholera and dysentery.
    In 1887, Chicagoans decided to embark on their first Great Lakes 
restoration effort: They boldly dared to reverse the flow of the 
Chicago River, to stop the sewage in that body of water from flowing 
into Lake Michigan, their drinking water source.
    The Metropolitan Sanitary District of Greater Chicago successfully 
reversed the flow of the Chicago River by 1900, thereby alleviating the 
chronic pollution problems.

                          Lake Michigan Today

    One hundred years later, Lake Michigan remains a vital economic 
engine for Illinois and other surrounding states, but it also continues 
to experience environmental challenges.
    Lake Michigan is the largest body of fresh water entirely within 
the boundaries of the United States.
    The Great Lake extends along 63 miles of shoreline in Illinois.
    It provides drinking water for six million people in Illinois.
    The lake also continues to serve as an avenue for commerce.
    Despite all of the positive aspects, Lake Michigan is troubled.
    Illinois has Lake Michigan fish consumption advisories due to 
unhealthy levels of mercury, chlordane and PCBs.
    The Lake Michigan shore at Wauykegan, IL is contaminated, due to 
industrial activity there throughout the last century.
    There are several Superfund sites in this area, some of which have 
been cleaned up to a large extent, but the work has yet to be 
completed, primarily due to a lack of funding.
    The latest threat to Lake Michigan are two types of Asian carp, 
bighead and silver, which we are trying to stop from reaching Lake 
Michigan. These carp can grow to more than 100 pounds and 40 inches 
long and could cause untold damage to the Great Lakes due to their 
voracious appetites.

                               What Next

    We need to be bold, like those who reversed the flow of the Chicago 
River, and reverse the trend of environmental degradation of our 
precious Great Lakes.
    Thanks to coordinated efforts and significant funding, other 
ecosystems in our country have begun to be restored, including the 
Chesapeake Bay and the Florida Everglades ($7 billion authorized so 
far, could be up to $14 billion total).
    Yet, despite all of the well-intentioned organizations and programs 
in the Great Lakes, there is still a lack of coordination and funding.
    That is why I am proud to be cosponsoring legislation with Senators 
DeWine, Levin and Voinovich, to create a $6 billion investment in the 
Great Lakes over 10 years.
    This legislation would enhance the coordinating functions of EPA, 
establish an Advisory Board with a variety of stakeholders, including 
representatives of the Cities Initiative started by Mayor Daley of 
Chicago, and create ways to measure progress.
    I believe this is a good starting point, and I look forward to 
hearing further thoughts from our panelists.

    Senator Voinovich. Thank you, Senator Durbin, for your 
statement.
    If there are no objections, all other Senators' statements 
will be submitted for the record and we will proceed to take 
the testimony of Senator DeWine and Senator Levin.
    I would like to also welcome Senator Coleman from Minnesota 
here this morning. Norm, thanks very much for being here.
    Senator Coleman. Thank you, Mr. Chairman.
    Senator Voinovich. Senator DeWine.

STATEMENT OF HON. MIKE DeWINE,\1\ A U.S. SENATOR FROM THE STATE 
                            OF OHIO

    Senator DeWine. Mr. Chairman, thank you very much. I want 
to congratulate you and thank you, as well as Senator Durbin 
and Senator Coleman, for your great commitment to the Great 
Lakes. I know all three of you have a longstanding commitment, 
not only from a personal point of view, but in a public policy 
point of view, to the Great Lakes.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator DeWine appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    Mr. Chairman, I know of your great love and great 
commitment to the Great Lakes. You fish in the Great Lakes 
often. You tell me about your fishing prowess in the Great 
Lakes---- [Laughter.]
    And give me the fishing report quite often. I am jealous 
when I hear about it. I also know that you live within walking 
distance of Lake Erie and you understand about the Great Lakes. 
As mayor and as governor, you had a great commitment to the 
Great Lakes. You did a great deal. You continue to work very 
hard for the Great Lakes. The fact that you are holding this 
hearing today shows your continued commitment and I look 
forward to working with you and the other Members of this 
Subcommittee to enhance the Great Lakes.
    I am delighted to be here with my colleague from Michigan. 
I think it says a great deal. Senator Levin and I, as co-chairs 
of the Great Lakes Task Force, a Republican from the State of 
Ohio and a Democrat from the State of Michigan, are 
cosponsoring S. 1398. It is something when two people, one from 
Ohio, one from Michigan, can get together on anything. But we 
are together. We have worked together on many things. But we 
put this bill together, we worked very hard together, and we 
are glad to have the members of this panel as cosponsors of 
this bill.
    It is about time, frankly. We all have talked about the 
Great Lakes. We have talked about the need for an overriding 
vision for the Great Lakes. We prepared for this bill and now 
it is time to introduce it and now it is time to move forward.
    What we are saying with this particular bill is that there 
needs to be a national policy for the Great Lakes. We need to 
have a national vision for the Great Lakes. And finally, we 
need to have a national commitment to the Great Lakes.
    We have all worked, all of us in this room have worked on a 
kind of a piecemeal basis in the past to help the Great Lakes, 
and each one of us in this room can point to different things 
that we have done for the Great Lakes. But what we need now to 
do is to wrap that all together and to look forward, not just a 
year or 2 years or 5 years, but say, what do we want to 
accomplish for the next 10 years and what is going to be the 
commitment of this country, because this is truly, as Senator 
Durbin has said and as you have said, Mr. Chairman, a national 
treasure. It is a national treasure that we have to preserve, 
we have to enhance so that we can hand down to our children and 
our grandchildren and our great-grandchildren, and that is our 
moral obligation. We have an obligation to do that, and that is 
what we are saying with this bill.
    We have, frankly, waited long enough to turn the talk into 
action, because the sad fact is that for all the good work we 
have done in the past, and there has been great work done by so 
many people, and we have made progress, but the sad fact is, we 
are not keeping up. We are not keeping up with the sewers. We 
are not stopping the sewers from overflowing into the Great 
Lakes. They do it every day. We aren't controlling and 
preventing the spread and introduction of the invasive species 
into the Great Lakes.
    We are still seeing, Mr. Chairman, our wetlands vanish, and 
they are vanishing in Ohio and the other States. And not only 
do we need to stop them from vanishing, frankly, we need to 
begin to restore them and to do a better job in that respect. 
We need to move forward and not only be on the defense, but 
start to be on the offense.
    We also must ensure, Mr. Chairman, that the public has 
adequate access to the Great Lakes. That is a particular 
problem in our home State of Ohio, where a great deal of the 
Great Lakes lakefront, Lake Erie lakefront, is in private 
hands, and we need to make sure that when there is available 
land, when it does come up, when there is a willing seller, 
that there is money available to make more frontage available 
for the public so that the public can, in fact, enjoy it.
    We also need to be concerned about fish and wildlife 
habitat and make sure that it is maintained and improved.
    I have been asked, as I am sure Senator Levin has been and 
my other colleagues who have cosponsored this bill, about the 
$6 billion. Some people have said it is too much. Some people 
said it is not enough. The truth is, there is nothing magical 
about $6 billion. That is spread over 10 years. The truth is, 
it is a minimum amount of money. We all know that.
    And while there is nothing magical about the $6 billion, 
there is certainly something magical about the Great Lakes, and 
we all know that. There is something magical about looking out 
at any one of our Great Lakes and seeing a man out there all by 
himself in a boat fishing. There is something magical about 
seeing a young couple or an old couple walking along the shore 
at night. There is something magical about seeing a little 
child out there being taught by his grandfather how to fish, or 
his grandmother how to fish. There is something magical about 
seeing a great cargo freighter plying the waters of the Great 
Lakes, a freighter that, I might add, is by far the safest form 
or way to move our cargo in this country and something that 
needs to be enhanced and treasured, something we need to try to 
make sure is always available.
    These are things that you cannot measure by money, but it 
is something that money can make sure is available and 
continues. So this is a great treasure. It is a treasure that 
is hard to compare, but I think as Senator Durbin and you, Mr. 
Chairman, and Senator Coleman have all so eloquently said, and 
my colleague, Senator Levin, has said in the past, something 
that we have a moral obligation to do what we can to preserve. 
And so this is what this bill does.
    I thank you very much for holding this hearing, not just 
about this bill, but for holding this hearing about the GAO 
study. As you have said, the GAO study showed us what we are 
doing wrong and I think it has pointed the way and it is sort 
of like an alarm that has gone off in the night and said, look, 
we have got problems and we have not done things the right way. 
But it has also pointed and kind of shown us the light and 
said, these are the things that we need to change. These are 
things that we can do in the future and now is the time to do 
it.
    So I thank you, Mr. Chairman, and I would like to submit my 
full statement for the record. I appreciate very much the fact 
that you have held this hearing today.
    Senator Voinovich. Thank you, Senator DeWine, and you can 
be assured that we will insert your statement in the record.
    Senator Levin.

STATEMENT OF HON. CARL LEVIN,\1\ A U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Levin. Mr. Chairman, let me thank you, Senator 
Durbin, Senator Coleman, and other Members of this Subcommittee 
for your strong support of the Great Lakes, for your 
leadership, and for your calling this hearing today on the GAO 
report and on the bill which I am proud to have cosponsored 
with Senator DeWine and which you and other Members of this 
Subcommittee and, indeed, the Senate have cosponsored.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Levin appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    We are temporary stewards of a unique national treasure. I 
know the Great Lakes are the only bodies of fresh water on 
earth which can be seen from the moon. The Great Lakes are 
actually visible if you stood on the moon. I don't know if 
there are too many other natural features about which that is 
true.
    If you spread the waters of the Great Lakes on the entire 
48 contiguous States, it would be about ten feet deep. We have 
the world's greatest treasure of fresh water and I think we all 
feel keenly about protecting that. I know everyone in this room 
and you, Mr. Chairman, Senator Coleman, and Senator Durbin, 
those of us who live on the Great Lakes, feel very keenly about 
this responsibility.
    If I could just hearken back for perhaps 25 or 30 years, 
the first time I testified before the Senate was to urge the 
Senate to adopt a national standard on the level of phosphates 
in detergents because of the damage that those phosphates were 
doing, particularly to Lake Erie. And you, Mr. Chairman, and I 
and Senator DeWine, of course, have a particular local 
interest.
    But we saw the damage that Lake Erie was undergoing because 
of the extra phosphate in detergents and we adopted a little 
ordinance in my hometown of Detroit when I was President of the 
City Council to reduce the level of phosphates which would be 
allowable in detergents sold in our city. People kind of 
scoffed at that and said, what can you do with a local 
ordinance? The answer was, perhaps not a lot, but perhaps that 
will lead to State action and then to Federal action. In fact, 
that is what happened. It is kind of proof of the old saying, 
``think globally, act locally.'' It is kind of a good example 
of what can happen, and there have been a lot of examples.
    You, Mr. Chairman, both as governor and as mayor, have been 
involved deeply with Great Lakes restoration. And I know 
Senator Coleman, Senator Durbin, and others, and I know Senator 
DeWine personally have been involved in a lot of small steps 
that we have taken, but they are still small steps. We have not 
taken that major stride that we need to take in terms of 
protecting and preserving the Great Lakes.
    Some of those small steps have been trying to control the 
sea lamprey. We have been able to reduce that population by 90 
percent. We have taken a very aggressive step there which has 
worked because we worked together. The lake sturgeon recovery 
program is also apparently working.
    We have destroyed a significant percentage now of high-
level PCB wastes, up from approximately 40 percent just 5 years 
ago to over 80 percent in April 2002. We finally have one of 
the Areas of Concern, where there are contaminated sediments, 
which has been upgraded now to a recovery area, though not yet 
off the list. We don't have any of our Areas of Concern where 
we have contaminated sediments which have been removed from the 
list, but we finally have upgraded one in Pennsylvania to a 
recovery area.
    So we know that there are actions which can be taken at the 
Federal, State, local level with the help of all the groups who 
are involved that will make a difference, but we need to take, 
as Senator DeWine has said, the big step, the giant step, the 
comprehensive step in terms of resources, in terms of vision, 
in terms of two areas of coordination which are essential. One 
is at the Federal level and the other one is between the 
Federal Government and State, local level, and all of the 
groups which are involved in this effort.
    So the bill which we have introduced does do both of those 
coordinating efforts. It takes those steps with an advisory 
board which connects everybody together, as well as a Great 
Lakes Coordinating Council, to ensure that Federal activities 
are coordinated.
    I won't go through all the other provisions of this bill 
other than to say that Senator DeWine and his leadership have 
been absolutely instrumental in getting this bill to where it 
is now and that your leadership, Mr. Chairman, and that of 
Senator Durbin, Senator Coleman, and others will hopefully be 
able to push this across the finish line in the Senate.
    But again, it has been eloquently stated by Senator DeWine 
and you, Mr. Chairman, and others as to what our responsibility 
is as temporary stewards of the Great Lakes. We, all of us who 
are Great Lakes Senators, feel keenly that this is a national 
issue. Indeed, this is an international issue.
    One-tenth of our people in America rely on the Great 
Lakes--job-wise, sports-wise, water-wise for drinking, and in a 
lot of other ways. One-tenth of Americans are dependent 
directly on the Great Lakes and this is something which we are, 
very keenly sensitive to. Hopefully, we can now take this 
additional, this major step in terms of protecting a treasure 
which we know is unique to the world. Thank you very much.
    Senator Voinovich. Thank you, Senator Levin.
    I would just like to thank both of you for your eloquence 
this morning and for your leadership of the Great Lakes 
Commission. Senator DeWine, you caught me up with the magic of 
some of the things that you were describing. They are things 
that I relate to very clearly. It is little known that I can 
look out of my living room window and see Lake Erie. I always 
tell friends that I am very fortunate that those nights that I 
am home, that I can take 100 steps and see a beautiful portrait 
by the master, and it is different each night.
    I am so pleased that you have made this commitment, that 
you have this commitment. It is a real issue, and I think if we 
really put our minds to this, we can put this plan in place and 
really see something happen.
    I have to tell you, over the years, I kept saying, we have 
got all these groups doing all these things. And, of course, 
when you are--I was Chairman of the Council of Great Lakes 
Governors. You are just doing the governors thing. And then I 
was a mayor. We have a chance as Federal officials to try and 
bring all of this together, and again, I applaud your 
leadership and look forward to working with you.
    Senator Levin. Thank you.
    Senator DeWine. Thank you, Mr. Chairman.
    Senator Voinovich. Thank you.
    As our witnesses come forward, I would like to say that due 
to time restraints this morning--I think we have got a vote at 
12:05--we are going to strictly enforce the 5-minute time limit 
on opening statements. I request that you monitor the timer in 
front of you and if you can make your statement in less than 5 
minutes, we would appreciate that. I want all of you to know 
that your statements will be entered into the record in their 
entirety.
    Additionally, I am going to try to limit the period for 
questions to 5 minutes and only one round per panel. I would 
like you to know that we intend to submit questions to you in 
writing and would hope that you could get back to us with the 
answers to those questions as quickly as you possibly can.
    We will now proceed to the second panel. Since it is the 
custom of this Subcommittee to swear in the witnesses, I will 
ask all of you to rise so that I can swear you in.
    Do you swear the testimony you are about to give before 
this Subcommittee is the truth, the whole truth, and nothing 
but the truth?
    Mr. Stephenson. I do.
    Ms. Thorson. I do.
    Mr. Skinner. I do.
    Col. Ryan. I do.
    Mr. Keeney. I do.
    Senator Voinovich. Let the record show that all of the 
witnesses answered in the affirmative.
    Our first witness is going to be John Stephenson, Director 
of Natural Resources and Environmental Issues, U.S. General 
Accounting Office. Mr. Stephenson, we are very glad to welcome 
you here today. Please proceed.

TESTIMONY OF JOHN B. STEPHENSON,\1\ DIRECTOR, NATURAL RESOURCES 
        AND ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Stephenson. Thank you, Mr. Chairman, and Senator 
Coleman. I am here today to discuss our work on environment 
restoration activities at the Great Lakes.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stephenson with an attachment 
appears in the Appendix on page 50.
---------------------------------------------------------------------------
    As you know, the Great Lakes is the largest system of fresh 
water in the world. It provides drinking water to over 26 
million U.S. citizens. It is an inland waterway for the 
inexpensive transport of goods. It is the water for the 
region's industry and a recreation resource for boating, 
swimming, and sport fishing.
    My testimony is based on our April 2003 report which we did 
for Congress' Great Lakes Task Force in which we attempted to 
identify total Federal and State funding for Great Lakes 
restoration programs. We looked at overall planning and 
coordination of restoration efforts and tried to assess 
restoration progress since the original Great Lakes Water 
Quality Agreement was signed by the U.S. and Canada in 1972.
    It is fair to say that progress has been made in several 
areas, such as controlling the harmful sea lamprey, reducing 
the water's phosphorous content, and improving some fish 
populations. But the Lakes are still threatened and actually 
getting worse on many environmental fronts.
    It has been over three decades since the original agreement 
was signed, yet raw sewage is still being dumped into the 
Lakes. Fish are still contaminated with pollutants such as 
mercury and PCB, making them unsafe to eat, and beach closings 
have increased drastically in recent years to over 900 on Lake 
Michigan alone in 2002.
    As we reported last year, a 1987 amendment to the 
agreement, among other things, targeted 41 specific Areas of 
Concern for clean-up, 26 in U.S. waters, 12 in Canadian waters, 
and five shared by both. However, none of the U.S. areas have 
been restored to beneficial use and only two Canadian areas 
have been restored.
    So what is the problem? Is it lack of resources? Is it lack 
of a strategic plan? Is it the lack of an organizational entity 
with the authority to set priorities and evaluate alternatives? 
Is it the lack of indicators in a monitoring system to assess 
restoration progress? Actually, the answer to all of these 
questions is yes.
    We identified 181 Federal and 68 State programs spanning 
ten agencies and all eight Great Lakes States operating in the 
basin. While Great Lakes specific funding for some of the 
Nationwide and Statewide programs is often not tracked and, 
therefore, difficult to determine, we identified at least $3.6 
billion, $2.2 Federal and $1.4 State, going towards Great Lakes 
restoration over a 10-year period ending in fiscal year 2001.
    In contrast, about $5.3 billion, or $1.7 billion more, was 
devoted to South Florida ecosystem restoration during roughly 
the same 10-year time period. So while there are numerous 
programs and considerable resources being devoted to the basin, 
one has to question what we are getting for the effort.
    One problem is that there are a variety of strategies at 
the binational, Federal, and State levels to address specific 
environmental problems, but there is no overarching plan for 
coordinating these disparate strategies and program activities 
into a single coherent approach for restoring the basin. 
Without such a plan, it is difficult to ensure that limited 
funds are used effectively. Other large-scale ecosystem 
restoration efforts such as South Florida and the Chesapeake 
Bay have clearly demonstrated the benefits of such a plan.
    Exacerbating the problem is the lack of an effective, 
authoritative organizational entity for planning, monitoring, 
and establishing funding priorities. The Clean Water Act of 
1987, we think, granted EPA's Great Lakes National Program 
Office with the authority to coordinate Federal actions and 
funding in the Great Lakes, but in our opinion, it has never 
fully exercised this authority.
    Finally, I would like to highlight the lack of a 
comprehensive, widely accepted set of indicators and a 
monitoring system for determining whether the overall state of 
the basin is getting better or worse. Although the call for 
such a monitoring system can be traced back to the original 
agreement, after several past and ongoing attempts to develop 
such a system, this requirement remains largely unmet.
    We recommended in our report that EPA, one, in conjunction 
with other Federal agencies in the Great Lakes States, develop 
an overarching strategy that clearly defines roles and 
responsibilities for coordinating and prioritizing funding 
projects; two, submit to the Congress a time-phased proposal 
for funding this strategy; and three, develop indicators and 
more particularly a monitoring system for measuring overall 
restoration progress and for evaluating the merits of 
alternative restoration projections. EPA agreed with our 
conclusion but has not yet formally responded to these 
recommendations.
    Mr. Chairman, that concludes my statement and I will answer 
any questions later.
    Senator Voinovich. Thank you, Mr. Stephenson.
    Our next witness is Robyn Thorson. She is the Region III 
Director for the Fish and Wildlife Service. Welcome.

 TESTIMONY OF ROBYN THORSON,\1\ REGION III DIRECTOR, U.S. FISH 
                      AND WILDLIFE SERVICE

    Ms. Thorson. Thank you, Mr. Chairman. I ask that my written 
statement be submitted for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Thorson appears in the Appendix 
on page 161.
---------------------------------------------------------------------------
    Senator Voinovich. Without objection.
    Ms. Thorson. We appreciate the opportunity to be here today 
at this hearing to bring more focus to efforts currently 
underway and to accountability in the Great Lakes. I am the 
Midwest Regional Director for the Fish and Wildlife Service, 
which includes Ohio, Indiana, Iowa, Michigan, Minnesota, 
Missouri, Wisconsin, and Illinois and is headquartered in the 
Twin Cities.
    The Fish and Wildlife Service's mission is to work with 
others to conserve, protect, and enhance fish, wildlife, 
plants, and their habitats for the continuing benefit of the 
American people, and to do that, by working with others. We 
work with the agencies that are at this table, with tribes in 
the Great Lakes, with communities, with associations and non-
governmental organizations, and most significantly, with the 
States.
    I am going to list just a few examples of the kind of work 
that the Fish and Wildlife Service is doing in the Great Lakes, 
and I will point out that the GAO's report on page 26 
identified the numbers of Great Lakes-specific programs that 
each Federal agency has in the Great Lakes and the Fish and 
Wildlife Service had the most on that list.
    One example is the binational sea lamprey control program, 
which represents an effective and comprehensive strategy 
contributing to restoration goals for the Great Lakes. It is 
administered under the leadership and coordination of the Great 
Lakes Fishery Commission. The U.S. Fish and Wildlife Service 
implements the sea lamprey control program, along with the U.S. 
Geological Survey and Canada's Department of Fisheries and 
Oceans. This has been going on since 1955, an outstanding 
international example of tackling the invasive species problem 
effectively and it needs to continue.
    The Fish and Wildlife Service is also signatory to the 
joint strategic plan for management of Great Lakes fisheries, 
originally adopted in 1981, along with State, provincial, 
Federal, and tribal agencies from the United States and Canada. 
The joint strategic plan agencies have developed consensus-
based objectives for the structure of each of the Great Lakes 
fish communities and the means of measuring progress toward 
their achievement. This is most evident on Lake Superior, where 
lake trout populations have been largely restored, and 
restoration of coaster brook trout and their habitats is well 
underway.
    Similarly, the Great Lakes Fish and Wildlife Restoration 
Act, which Congress initially authorized in 1990, facilitates 
partnerships to achieve basin-wide comprehensive programs to 
assess the ecological status of the Great Lakes, and the Fish 
and Wildlife Service is preparing a report to Congress covering 
our activities under the Act from 1998 to 2002.
    The Fish and Wildlife Service also assists private land 
owners, townships, and county governments, with projects that 
benefit fish and wildlife resources. These are through our 
programs called Partners for Fish and Wildlife, the Coastal 
Program, and the Fish Passage Program. We provide technical 
assistance and seed money, just a bit of funding to get these 
started, for locally-led projects. They may seem small on scale 
compared to some of the larger programs like sea lamprey, but 
they are so important for citizen-centered governance, so 
important to Secretary of the Interior Gale Norton, and for 
citizen stewardship of natural resources. We are pleased to 
provide technical assistance and funding to these programs.
    To address the issue of chemical contaminants as ecological 
stressors in the Great Lakes, the Fish and Wildlife Service has 
a unique role using principles of ecotoxicology and ecological 
risk assessment to determine actual or likely effects of 
contaminants on fish and wildlife.
    And last, among the most critical threats to the Great 
Lakes is that posed by invasive species. Our efforts, those of 
our partners, and the National Invasive Species Council are 
focused on control of existing problems, such as the lamprey 
and the zebra mussel. And we must also address the threat that 
the Asian carp pose to the Great Lakes as they appear to be 
moving up the Mississippi River system.
    Construction of the electric barrier in the Illinois 
waterway is one example of a partnership effort to control 
invasive species and protect the waters and habitats of the 
Great Lakes, and I must pay a compliment to the Corps of 
Engineers for their leadership in this and particularly the 
City of Chicago for the Aquatic Invasive Species Summit that 
was recently sponsored to bring together engineers as well as 
environmental interests, and the transportation industry, to 
collectively address this critical problem.
    The Fish and Wildlife Service agrees that there will be 
great benefit from a comprehensive strategy to achieve 
restoration in the Great Lakes and that environmental 
indicators and a monitoring system must be part of any plan to 
achieve success. The Fish and Wildlife Service stands ready to 
continue its leadership role in fish and wildlife restoration 
and expand its work with partners to make the world's largest 
freshwater ecosystem a balanced and healthy environment for 
fish and wildlife and people. Thank you.
    Senator Voinovich. Thank you very much.
    Mr. Skinner, glad to have you here.

TESTIMONY OF THOMAS V. SKINNER,\1\ REGION V ADMINISTRATOR, AND 
      NATIONAL PROGRAM MANAGER FOR THE GREAT LAKES, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Skinner. Mr. Chairman, thank you. It is a pleasure to 
be here. Senator Coleman, as well, it is an honor to be in 
front of you today, and as I look around the room, for today's 
purposes, to be with Senators from the two greatest States in 
Region V. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Skinner appears in the Appendix 
on page 164.
---------------------------------------------------------------------------
    I am Tom Skinner, the Region V Administrator. I am also, in 
that role, the National Program Manager for EPA's Great Lakes 
Programs, and it is a pleasure to be here today with you to 
discuss briefly the General Accounting Office report, EPA's 
programs, and progress that has been made in protecting this 
Nation's irreplaceable Great Lakes ecosystem.
    I want to first take this opportunity to strongly reaffirm 
EPA's commitment to the Great Lakes as well as to the role and 
responsibilities set forth for the Great Lakes National Program 
Office, which we refer to as GLNPO, under Section 118 of the 
Clean Water Act. That Act requires GLNPO to serve as the lead 
for coordinating the protection and restoration of the Great 
Lakes system within the agency, as well as with other Federal 
agencies, the eight Great Lakes States, tribal authorities, and 
with the appropriate federal and provincial agencies in Canada.
    EPA and GLNPO have made significant progress along with our 
partners, and that is important, along with our partners. We 
have built a sound, comprehensive ecosystem management 
structure for the Great Lakes guided by adaptive management. 
The Great Lakes system is not static and we must adapt to the 
ever-changing challenges of protecting this magnificent 
resource, which, as you all know, contains 20 percent of the 
world's fresh surface water.
    The April 2003 GAO report made a number of recommendations, 
many of which we agree with, but a few of which we don't. EPA 
will submit its formal response to the GAO report later this 
month.
    Today, I would like to take the opportunity to outline what 
EPA, along with its partners, is doing with regard to 
coordination. I will highlight the programs and coordinating 
mechanisms we are using to effectively manage the Great Lakes 
program to achieve environmental results and to ensure that 
this magnificent resource is protected now and for future 
generations.
    GLNPO convened the U.S. Policy Committee, which is 
compromised of senior-level representatives of Federal, State, 
and tribal agencies with significant natural resource and 
environmental protection authorities and responsibilities. 
While the U.S. Policy Committee is not backed by a statutory 
mandate, it has become an effective vehicle for coordinating 
priorities of basin-wide significance for the Great Lakes.
    The Great Lakes Strategy 2002 is a product of the U.S. 
Policy Committee and serves an important function by focusing 
on multi-lake and basin-wide environmental goals that those 
governmental partners will work toward. It supports efforts 
underway, including the lake-wide management plans and remedial 
action plans for Areas of Concern, by addressing issues that 
are beyond the scope of these programs and helping integrate 
them into an overall basin-wide context. We believe that the 
Great Lakes strategy has helped to meet and exceed the 
requirements for coordination specified in Section 118 of the 
Clean Water Act.
    The strategy was released in April 2002 by former 
Administrator Whitman in Muskegon, Michigan. The plan is 
groundbreaking and includes major objectives that are both 
measurable and time-phased. Ten Federal agencies, eight Great 
Lakes States, and tribal authorities assisted in its consensus-
based development. We are now implementing the strategy and 
tracking progress.
    Some of the key goals, by 2005, clean up and delist three 
Areas of Concern with a total of 10 by 2010. By 2007, reduce 
concentrations of PCBs in lake trout and walleye by 25 percent 
from year 2000 levels. And by 2010, 90 percent of Great Lakes 
beaches to be open 95 percent of the season. Finally, by 2010, 
substantially reduce the further introduction of invasive 
species, both aquatic and terrestrial, to the Great Lakes basin 
ecosystem.
    I would also like to touch briefly in the little time that 
I have left on our efforts to increase the knowledge base and 
to develop strong scientific underpinnings for the decisions we 
make. The State of the Lakes Ecosystem Program, also known as 
SOLEC, was created by EPA and Environment Canada. SOLEC 
fulfills, in part, the requirement in the agreement for 
assessing and reporting progress. SOLEC is held every 2 years. 
It is science-based. It is a collaborative effort that includes 
many stakeholders as well as governmental partners from both 
sides of the basin.
    SOLEC has four objectives, to assess the state of the Great 
Lakes ecosystem based on accepted indicators; to strengthen 
decisionmaking and management; to inform decisionmakers of 
Great Lakes environmental issues; and to provide a forum for 
communication and networking among all stakeholders.
    Four SOLEC reports have been issued since 1995, with the 
2003 report to be released next month. Over 800 indicators have 
been reviewed and a suite of 80 indicators has been identified 
to assess the health of the Great Lakes.
    Now, turning to monitoring for a moment, we have a multi-
agency system of monitoring for the Great Lakes that involves a 
variety of expertise. A cost-effective system should be 
binational in scope since there are economies of scale. 
Numerous agencies on both sides of the border are contributing 
to our monitoring programs, ensuring that the best scientific 
expertise is applied to the Great Lakes.
    Now, of course, as the GAO notes, we can always improve our 
efforts to coordinate and to strive for clearer accountability 
and implementation and we are committed to doing just that. We 
want to make sure that the Great Lakes are healthy for both 
wildlife and people. We want future generations to enjoy their 
beauty and magnificence, and we consider ourselves all to be 
stewards towards this end. Because I also serve as the mayor of 
a Great Lakes community, Lake Bluff, Illinois, I take this 
responsibility particularly seriously.
    I would like to thank you, Mr. Chairman, and Senator 
Coleman, for inviting me to speak here today.
    Senator Voinovich. Thank you very much, Mr. Skinner.
    Mr. Skinner. Thank you.
    Colonel Ryan.

 TESTIMONY OF COL. WILLIAM E. RYAN, III,\1\ DEPUTY COMMANDER, 
  GREAT LAKES AND OHIO RIVER DIVISION, ARMY CORPS OF ENGINEERS

    Col. Ryan. Thank you, Mr. Chairman. I ask that my complete 
statement be submitted for the record and I will try to 
summarize and conserve time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Col. Ryan appears in the Appendix on 
page 176.
---------------------------------------------------------------------------
    Senator Voinovich. Without objection.
    Col. Ryan. Mr. Chairman, I am pleased to testify before you 
on the restoration of the Great Lakes. The U.S. Army Corps of 
Engineers supports efforts to improve the management of the 
programs for the protection and enhancement and restoration of 
the Great Lakes environment. I look forward to continuing to 
work with our sister agencies and other partners on approaches 
for moving the restoration of the Lakes forward.
    I will begin my comments with a response to the recent 
General Accounting Office report on the Great Lakes restoration 
needs, provide an overview of the Corps' Great Lakes programs, 
and offer some recommendations for future steps to enhance the 
management of the Great Lakes programs.
    The recent GAO report includes a description of the Corps 
of Engineers programs that are available to support the 
environment protection and restoration of the Great Lakes 
basin. We have found that the inventory of Federal and State 
programs for the Great Lakes contained in the GAO report is 
comprehensive and are using them in one of our ongoing studies.
    The Corps agrees with the GAO that an effort is needed to 
help coordinate the various restoration programs in the Great 
Lakes basin and a comprehensive monitoring system with selected 
indicators is necessary to measure progress in restoring the 
ecosystems of the Great Lakes system.
    Primacy for water resources management in the United States 
has been and must continue to be at the State and local level. 
While it is appropriate for the Federal Government to be 
involved in issues of international, national, or multi-State 
significance, such as the management of the Great Lakes water 
resources, it is the States and in particular governors who 
should be establishing the priorities for management of these 
shared water resources.
    The diversity and environmental issues on the Great Lakes 
basin has spawned a number of intergovernmental organizations 
and committees to coordinate one or more specific issues, 
whether it is invasive species, wetland restoration, water 
management, nonpoint source pollution, or contaminated 
sediment. A significant amount of planning and coordination has 
already been accomplished through these existing organizations 
and committees, including the U.S. Policy Committee, the Great 
Lakes Commission, the Council of Great Lakes Governors, and the 
Great Lakes Fishery Commission.
    The environmental issues that are facing the Great Lakes 
are numerous and complex. Great Lakes issues include 
contaminated sediments, invasive species, groundpoint source 
pollution, and water management within a framework of two 
countries, eight States, and two provinces.
    We believe that restoring the Great Lakes resources will 
benefit from a watershed perspective, emphasizing collaboration 
and integration. Success will require the participation of all 
interested parties in the planning and the decisionmaking 
process, and this participation will foster an open dialogue to 
integrate sometimes competing or conflicting water resource 
needs. Such integration and collaboration are indispensable to 
meeting the water challenges.
    The Corps has a variety of civil works programs that are 
being utilized for the protection and enhancement and 
restoration of the Great Lakes ecosystem. The size and 
importance of this water resource and the complexity of the 
challenges before it necessitate a team approach to its 
management. The Corps has worked as a team member, as well as a 
team leader, in different aspects of the collective environment 
programs for the Great Lakes basin.
    The Corps has been a member of a team that monitors, 
predicts, and regulates water withdrawals, flows, and 
diversions through our support of the International Joint 
Commission Board of Control and Reference Studies. The Corps 
has been a member of the U.S. Policy Committee and participates 
in the development of a strategic plan to facilitate the 
implementation of the Great Lakes Water Quality Agreement.
    Perhaps the most significant program the Corps has led to 
date is the removal and confinement of contaminated sediments 
from Federal navigation channels in the Great Lakes. Although 
this program is conceived as to measure from environmental 
protection rather than restoration, the Corps, in partnership 
with State and local governments, has removed over 90 million 
cubic yards of contaminated sediments from the Great Lakes 
through this program.
    Through a more recent program, the Corps is currently 
leading projects for environmental dredging at eight Great 
Lakes Areas of Concern in partnership with State and local 
agencies.
    The Corps has four basin-wide studies ongoing that are 
addressing our specific or general water resources needs of the 
Great Lakes. The first of these is the U.S.-Canadian 
collaborative study of existing navigation infrastructure in 
the Great Lakes and St. Lawrence Seaway.
    The second is a basin-wide study, is an inventory of 
biohydrologic information relevant to the Great Lakes water 
management and will complete a gap analysis of water-related 
data.
    The third is a basin-wide study we have initiated in 
partnership with the Great Lakes States. It is an evaluation of 
the economic benefits of recreational boating in the Great 
Lakes, and in particular those utilizing the Federal navigation 
system.
    And the fourth is the Great Lakes study the Corps is 
helping to develop as a plan in collaboration with the Great 
Lakes Commission. It was authorized by the Water Resources 
Development Act of 1999. This study will produce a report to 
Congress with an analysis of existing water resource needs 
identified by the Great Lakes States and stakeholders and 
recommendations for new or modified authorities to address 
unmet needs.
    The Corps is pleased to have had this opportunity to appear 
before you and provide testimony on this important subject. Mr. 
Chairman, this concludes my remarks.
    Senator Voinovich. Thank you, Col. Ryan. Mr. Keeney.

TESTIMONY OF TIMOTHY R.E. KEENEY,\1\ DEPUTY ASSISTANT SECRETARY 
 FOR COMMERCE FOR OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND 
    ATMOSPHERIC ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Keeney. Mr. Chairman, Members of the Subcommittee, I am 
Tim Keeney, Deputy Assistant Secretary of Commerce for Oceans 
and Atmosphere. On behalf of NOAA's Administrator, Vice Admiral 
Conrad Lautenbacher, I would like to thank you for inviting me 
to testify today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Keeney appears in the Appendix on 
page 181.
---------------------------------------------------------------------------
    Mr. Chairman, I would also like to add up front that we 
believe that the ``O'' in NOAA, which is the National Oceanic 
and Atmospheric Administration, includes the Great Lakes and we 
are very much involved in that region.
    Mr. Chairman, I ask that my complete statement be submitted 
for the record.
    Senator Voinovich. Without objection.
    Mr. Keeney. As other witnesses have pointed out, the Great 
Lakes are one of the earth's greatest treasures and the 
Nation's single most important aquatic resource. Today, I will 
focus my remarks on two areas, NOAA's response to the recent 
GAO report and NOAA's programs related to restoration efforts 
in the Great Lakes.
    NOAA shares the concerns raised in the recent GAO report on 
the Great Lakes. Although many Federal, State, and local 
programs are already working together on this task, better 
coordination would help all partners to work together more 
effectively to restore the Great Lakes ecosystem. Improving the 
consistency of performance metrics among the agencies involved 
and better coordination of the Great Lakes monitoring programs 
would provide information necessary for reliably evaluating 
progress toward regional restoration goals.
    NOAA has environmental stewardship assessment and 
prediction responsibilities in the Great Lakes. We conduct 
research and environmental monitoring and modeling, providing 
scientific expertise and services to manage and protect the 
Great Lakes ecosystem. NOAA's Great Lakes restoration programs 
and partnerships, the topic of today's hearing, are a topic of 
great priority. NOAA's restoration role includes advising on 
cleanup of contaminated sites, working with States to fund 
habitat restoration projects, and conducting research and 
monitoring activities. I would like to highlight a few examples 
of our work in the region.
    NOAA works with EPA and other agencies at contaminated 
sediment sites in the Great Lakes to protect the aquatic 
environment, to clean up these sites, and to reduce overall 
injury to natural resources and speed their recovery. NOAA is 
currently working on cleaning up and restoring 18 hazardous 
waste sites in the region. NOAA also partners with seven of the 
Great Lakes States through the Coastal Zone Management Program 
to protect, restore, and responsibly develop the Nation's 
important cultural resources. In Ohio, for example, NOAA has 
provided funding to coastal communities and organizations to 
develop comprehensive land use plans, improve access to Lake 
Erie's shoreline, and conduct research and education.
    NOAA's Great Lakes Coastal Restoration Program, which as 
funded through a $30 million appropriation in fiscal year 2001, 
is an excellent example of our recent restoration efforts. More 
than 70 local government units have partnered in this program 
and are working on a variety of restoration projects, including 
contaminated sediment cleanup, invasive species removal, dune 
and marsh restorations, acquisition of critical habitat, and 
stormwater management.
    Activities coordinated by NOAA's Sea Grant College Program, 
a partnership between the Federal Government and the Great 
Lakes Universities, develop and implement methods to restore 
habitat. Sea Grant extension agents empower coastal communities 
in the region to undertake well-planned coastal development 
that preserves and promotes restoration of critical coastal 
habitats.
    NOAA has established the National Center for Aquatic 
Invasive Species Research to develop a coordinated research 
plan to address invasive species issues. The Center will foster 
partnerships among NOAA and other entities to address 
prevention, early detection, rapid response, and management of 
invasive species, a major restoration issue for the Great Lakes 
ecosystem.
    Finally, NOAA has recently awarded two grants that will 
further the restoration planning for the Great Lakes. Under 
these grants, the Great Lakes Commission and the Northeast-
Midwest Institute, in partnership with the Great Lakes Sea 
Grant Network, will provide technical and scientific support to 
the region's leadership in the development of a comprehensive 
ecosystem restoration plan. The Institute will review the 
approaches that other regions have used to launch major 
ecosystem restoration initiatives in order to provide guidance 
for Great Lakes planning efforts.
    The Commission will facilitate a series of State and 
province focus groups, culminating in a Great Lakes restoration 
forum that will identify restoration priorities and associated 
strategic actions. This effort will help unify the many 
existing strategic plans from partner agencies.
    NOAA looks forward to working in partnership with EPA, 
States, and others in this effort.
    Thank you, Mr. Chairman. I look forward to answering your 
questions.
    Senator Voinovich. Thank you, Mr. Keeney.
    Mr. Keeney, I have to tell you that I was not aware of what 
NOAA was doing. I mean, I am very familiar with the Sea Grant 
program and what Jeff Reutter is doing up at our lab in Ohio, 
the Stone Lab. I have been very much involved in coastal 
management and setting requirements for those people that live 
on Lake Erie. They have got to talk about erosion, and then 
lake access.
    Mr. Keeney. Mr. Chairman, I would love to come by and visit 
with you and your staff.
    Senator Voinovich. It is interesting that you have gone 
through a number of things, and the Army Corps of Engineers is 
involved. The EPA is involved, Fish and Wildlife. Is there an 
orchestra leader that knows what all of you are doing and is 
coordinating it?
    [No response.]
    Senator Voinovich. Mr. Stephenson, let us start with you. 
Mr. Skinner indicated that there were some things they agreed 
with and some that they disagreed with. I wasn't aware of the 
Great Lakes Strategy 2002. Would you like to comment on that?
    Mr. Stephenson. Well, I think from each of our witnesses, 
you heard that each has a restoration strategy, and that is 
exactly the point. There is no overarching strategy that 
orchestrates all these efforts, sets clear priorities and time 
frames for accomplishing things, and assigns specific 
responsibilities to the various partner agencies.
    So we can agree to disagree how much authority the Clean 
Water Act gives the Great Lakes National Program Office. We 
think that the authority clearly resides there for developing 
this overarching plan. That is why we made our recommendation 
to EPA. By the number of programs, the number of dollars, the 
number of activities that you heard, all of which have noble 
objectives and noble strategies, we just don't think these are 
well put together and well coordinated at this point.
    Senator Voinovich. Do you think that EPA should be the 
orchestra leader in keeping track of what everybody is doing?
    Mr. Stephenson. You could establish a new body, which I 
think the legislation refers to an advisory board and a 
coordination council. It just has to be clearly set up in the 
legislation who has that responsibility for decisionmaking, 
setting priorities, and so forth. We think that EPA is in a 
good position to develop such an overarching strategy and we 
think that the current legislation gives them that authority.
    Senator Voinovich. Along with several of my colleagues, we 
sent you a letter requesting a follow-up study to examine what 
indicators and monitorings are needed in the Great Lakes and 
what additional research is necessary. As I stated earlier, 
when I was governor, we created and released the Lake Erie 
Water Quality Index in 1998. I think it is a very important 
piece of the restoration effort, to have these indicators. 
Simply put, we need to be able to measure if we are doing any 
good and highlight what is going on. I have always said, and 
when I was governor I used to say, if you can't measure it, 
don't do it.
    And I don't know if you have seen this or not, but it is 
interesting. We came up with a Great Lakes Water Quality Index. 
The issue was, what are the indicators? We had water quality, 
pollution sources, habitat, biological, coastal recreation, 
boating, fishing, beaches, tourism, and fishing. I suspect 
there are some people here that might say there may be some 
more indicators that you have on here.
    What we tried to do is then rate them. I know that Chris 
Jones is here and I am anxious to have a State of Ohio update 
of where we are in this. Have we made any progress or haven't 
we made any progress? What are the things that were bad in 
1998, what projects have been undertaken, and so on, so that we 
get this kind of restoration effort moving.
    I would like to see this kind of thing done for the entire 
Great Lakes, understanding that each of the Great Lakes are 
different. It is amazing, the difference between, say, Lake 
Superior and Lake Erie. Lake Erie is the greatest fishery of 
the Great Lakes, although, I think from testimony here of Fish 
and Wildlife, things are coming along in that regard in some of 
the other lakes. We really need to get on with this and then 
have the strategy so we can make it happen.
    I would like comments from all of you. Do you think that 
the EPA should be the leader of this kind, keeping track of 
what everyone is doing and kind of being the focus place for 
putting a plan together?
    Ms. Thorson. Senator, we would value an orchestra leader, 
as you characterize it, and working with the EPA has been a 
successful partnership for the Fish and Wildlife Service. We 
can continue to accommodate that, or in agreement with the GAO 
if there is a different coordinator. But so much of the 
strategizing to date has been more cataloging of effort than 
coordination of effort, and increasing that coordination by 
working together under existing authorities or under new 
coordination, all would be beneficial.
    So we support either direction, the current leadership of 
EPA or new coordination, as long as there is coordination.
    Senator Voinovich. Any other comments on that, in terms of 
an orchestra leader?
    Col. Ryan. Sir, I would also say we also need to look at 
the binational aspect of the Great Lakes as we are trying to 
put that together. Obviously, for the Federal Government, the 
U.S. Federal Government, we need an orchestra leader, but we 
also have to look at our neighbors to the North and how do we 
coordinate that whole aspect together from a binational 
standpoint.
    Senator Voinovich. Mr. Keeney.
    Mr. Keeney. Mr. Chairman, I serve on the South Florida 
Ecosystem Restoration Task Force for the Department of Commerce 
and I think that task force works pretty well. As has been 
mentioned by some of my previous commenters, we also support a 
multi-agency effort based in the Great Lakes which would 
include Federal, State, and regional groups working on this 
restoration effort. EPA would make a fine orchestra leader, but 
obviously, we need to have all of the players intimately 
involved.
    Senator Voinovich. Well, I am going to bring this up 
because Mr. Schornack may bring this up in his testimony and I 
have you here, Mr. Stephenson. The International Joint 
Commission Chairman writes in his testimony that the Great 
Lakes National Program Office doesn't ``have the power, the 
budget, or the reach to really direct programs over multiple 
Federal agencies and multiple levels of government. So never 
mind if I differ with the GAO report when it asserts that GLNPO 
has failed by not effectively coordinating work of the other 12 
agencies that are involved in restoration activities.'' Do you 
want to comment on that statement? Mr. Schornack, I think you 
are going to make it when you get up here to testify, and----
    Mr. Stephenson. I think what we are saying is that EPA was 
clearly given the authority, for the U.S. portion of the 
agreement, for performing that coordination function. Do they 
need more resources to do that? Probably so. I don't know why 
GLNPO hasn't taken on more of this requirement than it has. Mr. 
Skinner will have to answer that. I am simply stating that for 
our legislation here in the United States, that we think that 
EPA was already given that authority.
    That is not to say that a newly-established legislative 
body might also serve as a great orchestra leader. I think 
either way can work, but they have got to be provided the 
resources and responsibility for doing that very clearly.
    There needs to be interagency agreements between the 
Federal agencies, as well. There are no formal interagency 
agreements right now to implement any of these strategies.
    Senator Voinovich. Mr. Skinner, do you have the money and 
the budget to do the job?
    Mr. Skinner. Mr. Chairman, the resource issue is one that 
faces us and is daunting. Whether we have the resources depends 
on how our role is defined. I think the answers to your 
question from three of my four colleagues up here prove the 
point that I was going to make, which is that with all due 
respect to GAO, they may believe that the authority resides in 
GLNPO right now to do what they think needs to be done. 
Unfortunately, our sister agencies don't seem to agree with 
that. I mean, I didn't hear any of the three say, yes, EPA 
currently has the authority to do what is suggested. That is a 
big problem that we face. We are glad to take on that mantle of 
responsibility, but it may well be that if that is to be our 
responsibility, some clarification is necessary to make sure 
that we are all on the same page as to that role.
    Senator Voinovich. So if you are selected, then you think 
that it should be very clear that you have the interagency 
responsibility and that everybody knows that you are the 
coordinator. And just as important would be the budget and 
resources that you would need to get the job done and how you 
would interface, for example, with other agencies so that you 
don't have duplication.
    Would you agree that is really the genesis of any of this 
that we are talking about today to get everybody together to 
clearly define who the leader is and what their responsibility 
is, what the responsibilities are to the other agencies that 
are involved, and then also look at the international aspects 
of this, which is very important.
    And last, but not least, I think to get some input in from 
the other players. For example, Great Lakes United has some 
very good recommendations. And then I am sure there are some--I 
know when I was Chairman of the Council of Great Lakes 
Governors that we dealt with some of the industrial groups that 
were there when we did the GLI, Great Lakes Initiative, that 
started out as being a gigantic thing. We tried to get it down 
to really dealing with the bio-accumulative stuff that was 
within the Great Lakes.
    Ms. Thorson, you state in your testimony the Fish and 
Wildlife Service is developing and supporting environmental 
indicators of this ecosystem through your engagement with the 
EPA Great Lakes National Program Office, the U.S. Policy 
Committee, and the State of the Lakes Ecosystem Conference, 
SOLEC. Could you tell me a little bit more about these 
indicators that you have developed? Have you ever seen this? 
(Holding up Lake Erie Water Quality Index)
    Ms. Thorson. No, I haven't, Mr. Chairman, and I would like 
to see it.
    Senator Voinovich. Yes. I would be interested in just 
seeing how it fits in with what you are doing. Do you care to 
comment?
    Ms. Thorson. Yes. We like measurables. It helps us all 
focus and it also helps assign responsibility. Under SOLEC, the 
Fish and Wildlife Service happens to have responsibility for 
several particular environmental indicators like lake trout, 
lake sturgeon, and bald eagles, predictably, the ones within 
our jurisdiction. Beyond that, we also have the capability for 
measuring progress in wetlands restoration and other 
particulars. So we are measuring under SOLEC some specific 
assignments. We have greater capability of bringing to the 
table some measurables in a coordinated Great Lakes effort.
    Senator Voinovich. So the thing is there is some really 
good stuff going on there. It is a question of how do you focus 
in.
    Col. Ryan, you are dealing with sediments, right?
    Col. Ryan. Yes, sir.
    Senator Voinovich. And Mr. Keeney, you are dealing with 
some other things that I have down here.
    Mr. Keeney. Restoration.
    Senator Voinovich. Yes, but----
    Mr. Keeney. Research.
    Senator Voinovich. For example, sediments, Col. Ryan, you 
said you have done some work in the sediments area. Do you have 
a backlog of all the sediment projects? How far along are we?
    Col. Ryan. Well, we are concerned principally with the 
Federal navigation channel, so it doesn't encompass the total 
of all the contaminated sediments. Obviously, there are some 
outside those channels that we don't deal with, and I don't 
have those figures but I could get those for you.
    Senator Voinovich. I am familiar with some of the work by 
the National Bureau of the River, for example, but I funded 
that program with $7 million or $8 million when I was Governor 
of Ohio and it is still not done. You did one of the creeks 
that go into that and I was amazed at how the Corps went in and 
actually diverted the water and did the cleanup. It was an 
amazing project.
    I would suspect that you have a tremendous backlog of 
things that need to be done and haven't got the funding to take 
care of it.
    Col. Ryan. That is correct. It is priorities and the amount 
of resources available.
    Senator Voinovich. And then the issue then becomes, too, 
about the EPA and the Army Corps of Engineers, that some of the 
restoration project people are concerned about whether it is 
ecologically the thing to do. It is all of these little nuances 
that get involved in all of this.
    Before I take the next panel, do any of you want to comment 
on what anyone has said here or give me your final feelings on 
anything?
    Mr. Stephenson. I think we said it all in our report. The 
next project that you have asked us to do is take on this 
indicator development and monitoring system approach for the 
Great Lakes. You can see there is a lot of good work going on 
in different pockets, but the same thing is going to be at 
issue here. How can we coordinate all this work and develop 
meaningful indications--maybe Ohio has the answer with its 
indices project, but behind that must be a monitoring system 
for collecting the data. Even SOLEC says of its 80 indicators 
that less than half of them have credible data with which to 
measure against----
    Senator Voinovich. I am going to have Chris Jones up here 
and I am going to ask him the question of----
    Mr. Stephenson. Good.
    Senator Voinovich [continuing]. What monitoring have they 
been doing and who have they been working with in order to come 
up with a new report.
    Mr. Stephenson. Monitoring is kind of a hodgepodge right 
now. There are not specific standards for sampling. Water 
quality data varies all over the board. So there is a lot of 
work that needs to be done in that area. We have good air 
deposition monitoring, but not much good water quality data 
monitoring.
    Senator Voinovich. I remember the fiasco we had when we 
were--Mr. Schornack probably will remember this--when we were 
doing the advisories on fish and the differences of opinion. 
One State wanted to write one and the other didn't. We wanted 
to coordinate it and I don't think we ever did finish it up. 
Everybody did their own thing. So some of these things that we 
are talking about here as being kind of easy to do, when you 
really get down to them, are not that easy.
    Mr. Stephenson. It is very difficult.
    Senator Voinovich. Yes. Mr. Keeney.
    Mr. Keeney. Mr. Chairman, to build on the recommendations 
provided in the GAO report, NOAA can identify five steps that 
would strengthen and speed restoration of the Great Lakes, and 
if I could, I would just like to go over each one of them very 
briefly.
    Senator Voinovich. OK.
    Mr. Keeney. First, leadership is needed to develop a 
regional restoration plan. Some of these things, of course, 
have already been mentioned today.
    Second, once the unified restoration plan is in place, 
successful implementation will require increased and improved 
coordination.
    Third, we must build on current monitoring efforts that are 
being implemented by NOAA, EPA, and the Great Lakes States in 
order to gauge the health of the Great Lakes.
    Fourth, NOAA agrees with the GAO recommendation to document 
success of restoration projects. In order to do this, we 
suggest creating and maintaining a project management database.
    And fifth, the fundamental requirement for the Great Lakes 
restoration is ecosystem-level research that will lead to 
scientifically-based management in the restoration decisions. 
Thank you.
    Senator Voinovich. Thank you. Again, I held a hearing in 
Cleveland on the dead zones and we talked about zebra mussels, 
and you didn't mention the quagga mussels that are much larger 
and what they are doing. The point was, in terms of research, 
they are not sure yet what impact they are really having on the 
Great Lakes. We have had zebra mussels--in fact, when I was 
mayor, I held the first hearing on zebra mussels in the United 
States. It was 1989 or 1988 that we held it. Think of that. All 
this time has passed and we still haven't authoritatively 
decided what impact it has had on the ecology of the lake.
    Thank you very much for being here today. I really 
appreciate it.
    Mr. Skinner. Mr. Chairman, I just, in summation, want to 
say thank you for your continuing leadership on this issue, not 
only with regard to Lake Erie, but the Great Lakes in general, 
and offer GLNPO and EPA's willingness to work with you as you 
move forward and try and navigate your way, if you will, 
through these waters. Thank you.
    Senator Voinovich. Thank you.
    Ms. Thorson. Thank you, Mr. Chairman.
    Senator Voinovich. Our next panel of witnesses, and I will 
introduce them as they come forward, our first panelist is 
Dennis Schornack, who is the Chairman of the United States 
Section of the International Joint Commission; the Hon. Susan 
Garrett, who is an Illinois State Senator, District 29; Chris 
Jones, the Director of the Environmental Protection Agency in 
the State of Ohio on behalf of the Council of Great Lakes 
Governors; and Margaret Wooster, Executive Director of Great 
Lakes United.
    Again, I would like to remind the witnesses that I would 
like you, to the best of your ability, to limit your remarks to 
5 minutes. Prior to your giving your testimony, would you 
stand. I would like to swear you in, also.
    Do you swear the testimony you are about to give is the 
truth, the whole truth, and nothing but the truth?
    Mr. Schornack. I do.
    Ms. Garrett. I do.
    Mr. Jones. I do.
    Ms. Wooster. I do.
    Senator Voinovich. Let the record show that they all 
answered in the affirmative.
    Mr. Schornack.

 TESTIMONY OF DENNIS L. SCHORNACK,\1\ CHAIRMAN, U.S. SECTION, 
                 INTERNATIONAL JOINT COMMISSION

    Mr. Schornack. Thank you, Chairman Voinovich, for the 
opportunity to address the complex and vitally important issue 
of managing the restoration of the Great Lakes.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schornack with an attachment 
appears in the Appendix on page 190.
---------------------------------------------------------------------------
    I have the honor today of being accompanied on my right by 
Hon. Herb Gray, my co-chair of the International Joint 
Commission and the former Deputy Prime Minister of Canada.
    The operating principles of the IJC, our independence, the 
equality of commissioners and countries, our binational, 
science-based approach, and our objectivity, make the IJC the 
ideal watchdog over how well the countries keep their promises 
under the Great Lakes Water Quality Agreement. The IJC plays a 
key role in assessing progress and assisting in the 
implementation of this agreement.
    In our Areas of Concern report, the IJC corroborated the 
GAO findings that a lack of monitoring data, lack of 
restoration targets, and even the lack of something so simple 
as maps of each area of concern, make an assessment of progress 
virtually impossible. Moreover, after 16 years, we found that 
the countdown to clean--two areas cleaned up and 41 to go--is 
proceeding just too slowly.
    The IJC also agreed with previous reports of the GAO and 
its Canadian counterpart regarding the lack of coordination and 
the need to set clear lines of authority and accountability in 
order to properly manage the programs and assess the progress 
towards restoring beneficial water uses in Areas of Concern.
    When three independent agencies from two separate countries 
reach one conclusion, the result is a very powerful 
triangulation of opinion that is both legitimate and valid. 
Incredibly, the same three independent organizations also 
reached the same conclusions regarding both United States and 
Canadian management of alien invasive species in the Great 
Lakes, the number one threat to biodiversity in the ecosystem. 
Invasive species put both our ecology and our economy at 
serious risk, and frankly, no one is in charge of solving the 
problem.
    While Congress envisioned the Great Lakes National Program 
Office to be the key agency responsible for managing and 
coordinating restoration programs, the reality is they don't 
have the power, the budget, or the reach to really direct 
programs over multiple Federal agencies and multiple levels of 
government. They do a good job of coordinating work within EPA, 
but to fault them for not coordinating activities in the 
Commerce Department, Interior, or in Agriculture, is simply 
unfair.
    With all the concerns that have been identified today, what 
should we do? I believe the answer lies in the Great Lakes 
Water Quality Agreement. It is the fabric that binds together 
our two great nations and the single ecosystem we share. The 
agreement has a great purpose, creating a three-legged stool 
that supports an ecosystem approach to restore and maintain the 
chemical, physical, and biological integrity of the Great 
Lakes. What we need now is to breathe new life into the 
agreement to bring it into the 21st Century and to refocus 
national and international attention and action on restoring 
the greatness to the Great Lakes.
    While the agreement calls for a government review every 6 
years, it was last updated in 1987, some 16 years ago. Perhaps 
the time has come to reexamine the agreement, bring it in line 
with state-of-the-art science, and address contemporary 
ecological challenges.
    Questions such a review must answer include, is there a 
proper balance across the goals of physical, chemical, and 
biological integrity? Are agencies organized and managed to 
achieve these goals? Are there new technologies and new ways of 
thinking that could speed the pace of restoration? And who 
should monitor compliance and how?
    For example, the agreement commits the United States and 
Canada to a coordinated monitoring and surveillance program to 
assess compliance, measure progress towards specific 
objectives, and identify emerging concerns. However, as the GAO 
report notes, in 1987, this responsibility was shifted away 
from the IJC into the EPA and Environment Canada. It has 
subsequently languished for lack of commitment and resources. 
As a result, the IJC, the independent watchdog, is dependent 
upon the very government programs that we evaluate for the data 
upon which to evaluate them.
    So I commend you, Chairman Voinovich, and the cosponsors of 
S. 1398 for recognizing this unfulfilled promise in the 
agreement and for taking action to do something about it. I 
caution you, however, to preserve the independence of the IJC 
and to make sure that implementation of this Act will provide 
us the data and the tools necessary to do our job and to do it 
right.
    I also believe that updating the agreement could form the 
basis for a major binational Great Lakes initiative. Binational 
and bipartisan momentum for such an initiative is clearly 
growing and many organizations already have plans that reflect 
the consensus that something significant must be done. We don't 
need to create new and competing agencies, but rather give the 
Great Lakes National Program Office the power, the authority, 
and the budget they need to coordinate, and indeed, to direct 
work across Federal agencies and between the United States and 
Canada.
    And permit me to be so bold as to suggest that this time, 
the Great Lakes Water Quality Agreement could be submitted to 
the Senate for ratification, to strengthen it and to give it 
treaty status, making sure that promises made in writing become 
promises kept in action.
    Thank you, and that concludes my remarks, and I ask that 
they be submitted for the record.
    Senator Voinovich. Thank you. Ms. Garrett.

  TESTIMONY OF HON. SUSAN GARRETT,\1\ ILLINOIS STATE SENATOR, 
                          DISTRICT 29

    Ms. Garrett. Good morning, Senators Voinovich and Durbin. 
It is an honor to testify before the Subcommittee today. Thank 
you for the invitation to share my views on the critical issue 
of the Great Lakes restoration management.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Garrett appears in the Appendix 
on page 228.
---------------------------------------------------------------------------
    First, I would like to talk about the State and local 
government perspective. In 2002, I was elected to the Illinois 
State Senate to represent Legislative District 29. Before that, 
I served in the Illinois State General Assembly for two terms, 
representing Congressional District 59. Both of these districts 
include communities directly on the shore of Lake Michigan, and 
all of the communities I have represented are in a close 
proximity to a local lakefront recreational area.
    As a public official, I know how much pride my constituents 
take in Lake Michigan. It is a place where families go to enjoy 
recreational activities, like swimming and boating, the source 
of our drinking water, and an icon and resource for a variety 
of local and regional businesses.
    Part of my role as State Senator is to collaborate with 
other State and local officials in critical issues in my 
district. Collaboration and coordination is the key to 
successfully strengthening our communities.
    The GAO report makes several critical points, including the 
need for enhanced coordination and better data collection and 
monitoring. However, while the report discusses at length the 
role of Federal agencies, governors, and other organizations, 
it does not go in depth regarding the role of other public 
officials, including State legislators and municipal officials. 
Today, I would like to share my perspective as a local official 
representing a district with very tangible ties to Lake 
Michigan in order to aid the findings of the GAO report.
    From a local perspective, Great Lakes restoration is an 
environment issue, but it is also an economic, educational, 
public health, and equity issue. My constituents value 
environmental protection efforts because they want to see their 
children and grandchildren enjoy Lake Michigan just as they 
have. The ecological system of the Great Lakes is home to 250 
species of fish and several protected coastal areas and other 
public lands. We need to protect this ecological system from 
environmental threats, including invasive species, pollution, 
and habitat destruction.
    Today, I want to tell you about one of the clearest 
challenges we face on the Illinois side of Office of Management 
and Budget, high E. coli contamination. The presence of the 
harmful E. coli bacteria requires regular and frequent beach 
closings in order to protect public health. As I am sure the 
Subcommittee will agree, this is not acceptable. My 
constituents consider Lake Michigan our most valuable natural 
resource. We can no longer allow for our beaches to be closed 
so often during the summer months with any real understanding 
as to what is causing these extremely high bacteria levels.
    Some have claimed that sea gulls are the culprit of this 
high E. coli contamination. Others say raccoons and deer. Human 
sewage is another serious consideration. Locally, I have 
established a Clean Water Trust Fund that will provide the 
funding, much of which is coming from the grassroots, to do 
necessary testing that will determine the cause or causes of 
the E. coli contamination. The objective is to independently 
raise approximately $25,000 to cover the costs of an E. coli 
water sample study to determine whether sea gulls, deer, 
raccoons, human sewage, or a combination of all these elements 
are leaving harmful contaminants in Lake Michigan.
    While we must work together throughout the Great Lakes 
region, we must not ignore the fact that a lot of problems need 
local involvement and localized solutions. This is why we are 
working with several State and local entities, including the 
Illinois Department of Public Health, Illinois Environmental 
Protection Agency, Lake County Health Department, Lake Michigan 
Federation, businesses such as Baxter's, Chicago Medical 
School, and two independent scientists to pursue this study. 
This broad-based group of stakeholders indicates the strong 
level of local interest and expertise in these issues, but also 
highlights how important it is to coordinate and not duplicate 
efforts.
    Since embarking on this research effort, we have received 
E-mails and letters asking for more information from other 
communities and States, such as Michigan. These kinds of 
responses indicate a clear need for local, State, and Federal 
Government to be more proactive in understanding the water 
quality of Lake Michigan, as well as the other Great Lakes, and 
to map out a plan to reverse the current trend of pollutants 
continually threatening our Great Lakes. It also shows the need 
for a more comprehensive approach to collecting and 
understanding environmental data and indicators.
    The recommendations that I would suggest for improving 
Great Lakes restoration management, I would say that one of the 
most important things is to have a central office to go to with 
Great Lakes concerns and questions. We need a ``go to'' person, 
a one-stop shopping place where we can assess the resources and 
programs that can help us work together to restore the Great 
Lakes.
    For this reason, I am especially interested in the 
opportunity for the Great Lakes National Program Office to 
provide coordinated efforts on the issue of water quality, 
which is part of the DeWine-Levin proposed legislation that I 
understand the Chairman and Ranking Member support. It is 
critical to have a strategic, collaborative approach to 
improving the water quality of our Great Lakes.
    In addition, I support the establishment of an advisory 
board, another piece of the Senate and House legislation, which 
will help bring all the stakeholders together to plan for the 
future of our Great Lakes. It is especially critical to engage 
the participation of mayors and other public officials on this 
board and I am happy to be here today with the Village 
President of Lake Bluff, Thomas Skinner. Local citizens' groups 
and other forums for public participation are also essential.
    I want to thank you for your time and I will also submit my 
testimony for the record.
    Senator Voinovich. Thank you very much. Mr. Jones.

  TESTIMONY OF CHRISTOPHER JONES,\1\ DIRECTOR, ENVIRONMENTAL 
 PROTECTION AGENCY, STATE OF OHIO, ON BEHALF OF THE COUNCIL OF 
                     GREAT LAKES GOVERNORS

    Mr. Jones. Thank you, Senator Voinovich and Senator Durbin, 
for allowing me to appear on behalf of Governor Bob Taft 
representing the Council of Great Lakes Governors on the 
important topic of restoring one of the world's most important 
ecological treasures, the Great Lakes.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jones appears in the Appendix on 
page 233.
---------------------------------------------------------------------------
    The region's governors are pleased with the leadership 
Congress has shown in recognizing the critical importance of 
the Great Lakes and the pressing need to restore and safeguard 
them for generations to come. We particularly commend Senators 
DeWine and Levin for the introduction of their restoration bill 
this week and the Members of this Subcommittee who are 
cosponsors.
    The Great Lakes Governors recognize the need for an 
overarching plan that identifies specific restoration goals, 
establishes priorities, specifies measures of success, and 
serves as a coordinating focus for the many Federal, State, and 
local programs directed at Great Lakes restoration. Toward that 
end, the Council began working on the Great Lakes Priorities 
Project in 2001. The goal of the project is to develop such a 
plan in consultation with the Great Lakes mayors and other 
stakeholders. With the plan serving as both a scientific 
foundation and a policy funding consensus, the Great Lakes 
community can work with Congress to identify and procure the 
funding necessary to fully achieve its goals.
    We are somewhat behind the original schedule we set for 
ourselves, as five newly-elected governors in the Great Lakes 
States have needed time to familiarize themselves with the 
restoration programs in their States and the aims of the 
Council to coordinate a basin-wide approach. Recent 
conversations between Governor Taft and several other Great 
Lakes Governors, however, confirm the joint purpose and resolve 
of the Council. In fact, we are near to having a final set of 
priorities for the Great Lakes restoration. Our priorities will 
reflect broad goals, such as the protection of human health, 
restoration of habitat, and control of invasive species.
    The Council believes that the bills now pending in the 
House and Senate offer an opportunity to focus much-needed 
financial resources on these priority needs. At the same time, 
the governors wish to be clear that it is likely that 
restoration costs for the national treasure that is the Great 
Lakes ecosystem could and probably will run well beyond $6 
billion. A more precise figure cannot be arrived at absent the 
development of a comprehensive plan.
    What is important in the near term is continuing the focus 
on restoration efforts, and the DeWine-Levin bill does just 
that. Both States and the Federal Government have made 
substantial investments in this important resource and we want 
to expand and continue that good work.
    The Council has already demonstrated its commitment to 
collaboratively address Great Lakes issues on a regionwide 
scale through Annex 2001, an amendment to the Great Lakes 
Charter that addresses water diversions and in-basin 
consumptive uses from the Great Lakes. The Council is well on 
the way to meeting the Annex 3-year time line for development 
of binding agreements, which will include a decisionmaking 
standard to guide water withdrawals. This will also achieve the 
first of the governors' priorities.
    The recent GAO report notes that States devoted nearly $1 
billion in the time period reviewed to Great Lakes-specific 
projects, versus $745 million spent by Federal agencies and the 
Corps of Engineers together. Illinois, for example, has spent 
$6 million to restore coastal habitats. Michigan has committed 
$25 million to sediment remediation, while Minnesota spends 
$1.2 million each year to control invasive species. New York 
has devoted approximately $22 million to open space 
preservation projects in the Great Lakes basin, and in Ohio, we 
have directed $25 million to conservation projects in the Lake 
Erie basin.
    The region's governors have individually and collectively 
demonstrated the will and the leadership to invest in a wide 
range of restoration projects and stand ready to pull together 
a region-wide plan that can guide further progress.
    A necessary component of the plan will be environmental 
indicators by which progress can be measured, and I know that 
you have spoken of the need for a set of indicators for all the 
Great Lakes, Senator Voinovich, similar to the Lake Erie Index 
that you developed while you were Ohio Governor.
    The GAO report correctly notes that the development of 
indicators has been the purpose of SOLEC over the past several 
years and that a set of indicators has not been finalized. No 
one should underestimate what a difficult task this is, 
especially given the diversity and geographic expanse of the 
Great Lakes basin. Nevertheless, it is imperative that this 
effort move forward more expeditiously than has been the case 
to date, and a good system of indicators will form the basis of 
both accountability and measurement of success.
    The governors find much to commend in the GAO report and 
agree with its primary conclusion that the multitude of 
programs directed at the Great Lakes need to be better 
coordinated and focused. However, the Council disagrees with 
its recommendation that the restoration efforts be directed by 
GLNPO. Clearly, GLNPO has an important role to play, 
particularly with regard to the binational aspects of Great 
Lakes restoration. Other existing Great Lakes organizations and 
stakeholders are also key players. For example, the Great Lakes 
Commission can contribute valuable scientific and technical 
expertise. But we believe that it is the role of the region's 
governors to establish policy priorities in consultation with 
local governments and other stakeholders and to plan specific 
activities to achieve those priorities.
    Thank you very much for the time, Senator.
    Senator Voinovich. Thank you, Mr. Jones. Ms. Wooster.

  TESTIMONY OF MARGARET WOOSTER,\1\ EXECUTIVE DIRECTOR, GREAT 
                          LAKES UNITED

    Ms. Wooster. Thank you, Mr. Chairman and Subcommittee 
Members, for inviting Great Lakes United to testify today on 
government management in the context of Great Lakes ecosystem 
restoration. We applaud the leadership of the Great Lakes Task 
Force in both the House and Senate in bringing this issue to 
the fore and we support these issues to promote Great Lakes 
restoration and look forward to working with you to make them 
happen. I also want to commend the GAO study, which we thought 
was excellent.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Wooster appears in the Appendix 
on page 237.
---------------------------------------------------------------------------
    Great Lakes United is an international coalition of 
individuals and over 170 organizations representing hundreds of 
thousands of individuals from the eight Great Lakes States, two 
Canadian provinces, and tribal territories within the Great 
Lakes region. Our main constituents are environmental 
organizations, like National Wildlife Federation, Lake Michigan 
Federation, Sierra Club; conservation organizations like Trout 
Unlimited; and labor groups, like Canadian Auto Workers and 
United Auto Workers. We work with all of them at the local, 
regional, and international level on projects and policies to 
protect and restore the health of the ecosystem.
    To that end, over the past 2 years, Great Lakes United 
coordinated 30 Great Lakes groups in the creation of a 
citizens' action agenda, a summary of which, The Great Lakes 
Green Book, is over on the table and is presented with this 
testimony. It can also be found on our website at www.glu.org.
    Several of these groups that I mentioned, including 
National Wildlife Federation, Lake Michigan Federation, Sierra 
Club, and a few others, had input into the testimony that I am 
reading today.
    I am going to skip forward. The GAO report rightly points 
out that we need an overarching strategy that clearly defines 
agency roles and priority funding for Great Lakes restoration. 
We would like to elaborate on four major needs raised in the 
report. These are funding, agency coordination, public 
involvement, and finally, one that isn't really raised in the 
report but we feel is really important, the need to go beyond 
existing policies and programs.
    First, I will talk about funding. For at least the past 
decade, there has been a lack of funding for even the most 
basic protection and restoration efforts, like monitoring and 
cleanup, as the GAO report notes. For example, the IJC 
estimates it will cost $7.4 billion to clean up just the U.S. 
Areas of Concern, those 31 hot spots in the United States or 
shared with Canada.
    Congress recently approved the Great Lakes Legacy Act, 
authorizing $53 million per year for 5 years for sediment 
cleanup, which we hoped would restart cleanup efforts in the 
Great Lakes. But the funding proposed in the 2004 budget was 
only about one-third of that, or 0.2 percent of the total 
estimated cost.
    My point here is not to be ungrateful. Fifteen million to 
help restart sediment cleanup efforts is a good beginning. But 
my point here is to really point out the discrepancy between 
the amount and the need.
    We need a dedicated revenue stream over a period of at 
least 10 years sufficient to complete the job, the job of 
sediment cleanup. Every year we wait makes the job harder and 
costlier and prolongs a major source of ecosystem damage.
    Next, coordination. At this point in time, there is no one 
Federal agency and no consortium of State agencies with the 
capacity to develop and oversee a Great Lakes restoration 
initiative. We need an independent body which defines goals, 
targets, and time lines and accordingly prioritizes the 
projects that should be funded. This body should be led by the 
region's representatives, Federal, State, local, and tribal, 
with strong citizen involvement, strong public accountability 
in terms of meeting its charge, and a mechanism for cross-
border coordination. It should define criteria for funding 
projects to help leverage restoration goals.
    I want to just comment on that to say that S. 1398, with 
its Great Lakes Advisory Board led by the States and cities and 
tribes in the region, and then with its Federal agency 
coordinating committee led by GLNPO, is a beginning, we think, 
of a very good model for how this coordination should happen.
    Public involvement--there must be a strong public role in 
Great Lakes protection and restoration. The public must be 
represented on any advisory body, Federal or State, that 
determines a restoration plan and priorities for fundable 
projects. There should also be opportunity for wide public 
comment on restoration plans at strategic points in their 
development. In other words, inclusion of groups like Great 
Lakes United and the others in this process is important to us, 
but also we think we are going to need hearings along the way 
so that the wider public in the Great Lakes has a chance to 
contribute to the development of plans for Great Lakes 
restoration.
    Finally, policy change. This is something we haven't talked 
about, but we feel that--and our groups felt in creating a 
citizens' agenda for the Great Lakes that this was very 
important. There are a number of policy and institutional 
changes that are critical. I will offer two examples.
    One, we need to extend the focus of our strategies beyond 
reacting to ecosystem harm to proactive initiatives. For 
example, toxic reduction strategies must include support for 
policies and programs that create alternative choices in Great 
Lakes communities, such as incentives for resource 
conservation, green energy, and pollution prevention.
    Two, we need to carefully appraise the mandates of existing 
institutions with the greatest influence on Great Lakes waters, 
such as the U.S. Army Corps of Engineers, who accounted for 
almost half the U.S. Federal environmental spending in the 
Great Lakes over the past 10 years, according to the GAO 
report. The Corps' traditional mandate has been to protect and 
enhance private property, not ecosystems. In fact, improvements 
in the name of flood control, navigation, and shoreline 
hardening are usually directly detrimental to ecosystem health. 
Therefore, it is important that if agencies like the Corps have 
a role in Great Lakes restoration, that it be tightly defined 
and publicly accountable.
    Thank you again for this opportunity to speak.
    Senator Voinovich. Thank you, Ms. Wooster.
    As I mentioned earlier, your entire statements will be 
included in the record and some of us will have questions that 
we want to direct to you and we would appreciate your answering 
them in writing.
    Senator Garrett, you mentioned the E. coli problem, and I 
really wasn't aware that there was that much increase of it 
along the Great Lakes. You are trying to do something in your 
own community to determine it. First of all, are you aware of 
the Great Lakes Protection Fund?
    Ms. Garrett. To a certain extent, but I have reached out to 
many organizations and government entities and the ones that we 
have put on our panel are the ones who have been the most 
responsive.
    Senator Voinovich. Yes, because we, when I was governor, 
the Great Lakes Council of Governors set up a $100 million 
endowment for----
    Ms. Garrett. Maybe I will be calling them.
    Senator Voinovich [continuing]. For the research--yes, and 
they are right in Chicago. They give grants to various 
organizations to deal with various problems that confront the 
Great Lakes, and it seems to me that if this is a problem that 
is universal, that they ought to be willing to put some money 
into helping you get the research done.
    The other thing is, are there Federal agencies that are 
involved right now in trying to look at that same issue?
    Ms. Garrett. The Lake Michigan Federation provided me with 
some charts, which I will leave, but what the charts 
demonstrate is that the E. coli levels along our beaches are 
continually going up at a fairly frequent level and this is 
very disturbing information.
    And to the point of bringing in local, Federal, and State 
agencies, it is within our own communities that we have made 
the decision to do this testing and there has been resistance. 
So I think it is important to note that, that it may not have 
been able to happen through some of these other groups that you 
have been talking about.
    Senator Voinovich. Well, you have got the Great Lakes 
National Program Office that is in Chicago.
    Ms. Garrett. Yes.
    Senator Voinovich. Have you contacted them about that issue 
and are they doing anything about it?
    Ms. Garrett. We have not contacted them. We have stayed 
with--currently, we are working with the Lake Michigan 
Federation, the Illinois Department of Public Health, the 
Environmental Protection Agency, the Lake County Health 
Department, and we have received funding. We clearly are almost 
to where we need to be.
    But the fact of the matter is, I wasn't sure who to reach 
out to, and in some cases, it was a struggle when I did reach 
out, and people were in agreement--the constituents, my 
constituents, want to see this happen. But I guess my point, 
and I want to make this clear, is that there is resistance to 
this because no one community wants to admit that there may be 
human sewage from their community going into the lake, and I 
think that if they understood that there were dollars that will 
help upgrade those sewer systems or whatever may be the 
problem, that we need to find those dollars. But first, we have 
to understand what is causing the high E. coli levels.
    Senator Voinovich. But it gets back to if you had one 
``orchestra leader'' that knew what all the organizations were 
doing and where the problems were and where the funding sources 
were, that might be very helpful to everybody, because your 
problem is the same as, I assume, a lot of other places. I 
understand that they are afraid to do it because that gets back 
to what Ms. Wooster had to say, and that it is the funding.
    One of the things that we have struggled with in the 
Environment and Public Works Committee was increasing the 
amount of money for the State Revolving Loan Fund for Clean 
Water. It is not there. We are mandating all kinds of things 
for local governments and they don't have the resources to deal 
with them. So that is another aspect of this, looking at the 
big picture.
    Do you think that your local organizations would be--and 
this is the same question I would like to ask Chris Jones--
comfortable with working with the Great Lakes National Program 
Office. I mean, what do you think about them being kind of the 
host or the orchestra leader in terms of putting this all 
together?
    Ms. Garrett. I personally like that idea, because I think 
while the EPA does a wonderful job, I think this issue is 
specific to the Great Lakes. We have different issues 
associated with the Great Lakes, and an organization that fully 
understands those problems will be willing to listen and 
understand how to address those concerns is a group I would 
personally like to work with.
    Senator Voinovich. We talked about something called SOLEC, 
the State of the Lakes Ecosystem Conference, which has been 
created by the BEC. I think, Dennis, you said something about 
the fact that they are not moving. Who is responsible for 
SOLEC? They are to be developing, what, some standards to 
assess the indicators in terms of water quality. Who is in 
charge and where is the money coming from to fund them?
    Mr. Schornack. Well, I will give that a try, Senator. The 
Binational Executive Committee, the BEC, as you have named it, 
consists of leadership by the Environmental Protection Agency 
of the United States and co-chaired with Environment Canada. 
They are in the process of identifying indicators of ecosystem 
health, and it has been--they do this through a matter of a 
series of conferences----
    Senator Voinovich. But do they do that in terms of the IJC? 
Are you the ones that have orchestrated this agreement and do 
they kind of respond to you, or----
    Mr. Schornack. We have motivated and urged the development 
and implementation of indicators and have been a party to that 
process going on for 9 years. Currently, we have about 80 
indicators, but we only have data to partially support 33 of 
them, and there are things like the levels of PCBs in coho 
salmon, the numbers of beaches closed, and the quality of the 
drinking water.
    Those are the top three indicators that we think SOLEC 
ought to be focusing on, is making sure that the data is there, 
because these are the three top things the public cares about. 
Are the beaches open for swimming? Are the fish safe to eat and 
is the water safe to drink? We would like to see them, as a 
matter of advice, develop the data and the testing, the 
monitoring programs to substantiate those three indicators 
first before moving on to the other 77.
    Senator Voinovich. OK. I have some more questions on that, 
but first, Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman, and Senator 
Garrett, thank you for being here. I wanted to make sure you 
were invited to be part of the panel because I know you have a 
special perspective on this, since, I think, you have lived 
most of your life near Lake Michigan and certainly have 
represented Legislative and Senatorial districts on Lake 
Michigan.
    I think Senator Voinovich has given us a good idea about 
going after some resources to deal with some Illinois 
challenges, and perhaps if we drop his name we will be more 
successful in that effort. [Laughter.]
    We certainly will try to do that. But I think it really 
tells a story that you are trying to gather together $25,000 to 
do some testing and that you are struggling to find a source 
for that small amount, relatively small amount by even State 
standards, let alone Federal standards. It also reinforces the 
conclusion of the GAO that we just aren't coordinating this 
well enough. We are not sharing enough information so that 
people know exactly where to go to try to get a good community 
response to this. So I think this legislation moves us in the 
right direction, so thank you for being with us today.
    Ms. Wooster, you talked about money, and that is always a 
great topic in this town, and the fact that we haven't come up 
with much. We have done a lot of talking about this, but we 
haven't come up with much money. If I recall your testimony 
here, you said that the International Joint Commission 
identified 31 toxic hot spots with an estimated cleanup cost of 
$7.4 billion. If I understand you correctly, despite that 
estimated cleanup cost, Congress's proposed 2004 budget 
proposes, what, $16, $17, $18----
    Ms. Wooster. I think it is $15 million.
    Senator Durbin [continuing]. Fifteen million out of a $7.4 
billion need just for those hot spots, as they were identified.
    This bill that we are talking about supporting and want to 
see passed, if I understand it, authorizes about $6 billion, 
which is certainly a move in the right direction, but in 
comparison, the Everglades bill has $14 billion included. Now, 
I don't want to suggest that our challenge is as great as 
theirs. We need to justify every dollar that we request. But I 
think your figures really tell the story. If we are not going 
to invest the money once we have identified the problem, then 
we are going to have a wonderful unread report when this is all 
over instead of an action plan to do something, and I don't 
want to see that occur. I guess that is, from your organization 
viewpoint, your thought, as well.
    Ms. Wooster. Yes. We have got the largest freshwater 
ecosystem in the world here and we don't have investment nearly 
commensurate with its importance. We think people are beginning 
to understand the importance of the Great Lakes ecosystem as 
the largest freshwater ecosystem on earth, but we still haven't 
got the funding there to support its protection and 
restoration. So yes, the $4 billion, or $6 billion, I should 
say, is a very great improvement and it is probably not all 
that will be needed to do the job, but it is a very great 
start.
    Senator Durbin. We are facing record deficits now, as was 
reported yesterday, and I know the States are going through the 
same. Senator Garrett has just finished a legislative session 
and I assume that--I hope that this area wasn't cut, but did 
our State of Illinois have to reduce any of its State funds 
that would have been dedicated for some of our discussion 
purposes here?
    Ms. Garrett. I do not think so, and I also know that the 
Lieutenant Governor has set up his own Clean Water Trust Fund. 
I think we are going to be talking about drinking water and 
other things that will be subsidized through that fund.
    Senator Durbin. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Voinovich. Thank you, Senator Durbin.
    One of the questions I have is that the Great Lakes 
National Program Office, and Chris, maybe you could answer 
this, is that--all of the Great Lakes are not in just Region V, 
are they?
    Mr. Jones. No, Mr. Chairman. There are six States in Region 
V. There are eight States and two provinces that are on the 
Great Lakes.
    Senator Voinovich. So it is Region V and what is the other 
regions?
    Mr. Jones. Regions II and III are also in the Great Lakes.
    Senator Voinovich. So you have Regions V, III, and II, but 
the Great Lakes National Program Office has been charged with 
dealing with all of the Great Lakes. Is there a jurisdictional 
problem there? At least it is all in that basket.
    Mr. Schornack, what kind of relationship do you have with 
the Great Lakes National Program Office right now, the 
International Joint Commission?
    Mr. Schornack. Well, I would consider it a very productive 
relationship and one that--we rely upon the Great Lakes 
National Program Office for much of the data that we use to do 
our assessing function, our sort of independent watchdog 
function, on how well the two governments implement the terms 
and conditions of the Great Lakes Water Quality Agreement and 
that works very fine for programs that are under EPA's 
jurisdiction. But it gets less effective, however, when we are 
looking at things like habitat loss, where we have to cut 
across different Federal agencies. That is where we have some 
difficulty, I think, getting information.
    Senator Voinovich. So you have got the Great Lakes Water 
Quality Agreement and you indicated that it hasn't been updated 
since 1987, is that right?
    Mr. Schornack. That is right.
    Senator Voinovich. Do you think that would be a useful 
document? Does that include criteria for various levels of 
things----
    Mr. Schornack. Yes, sir, it does.
    Senator Voinovich [continuing]. Like the indicators in 
terms of these kinds of things, the water quality, pollution 
sources, and so on and so forth?
    Mr. Schornack. It does. There are, in fact, some 64 
different specific objectives for the amount of some 46 
different classes of chemical substance in the open water 
column and those specific objectives have to be met and things 
have to be monitored.
    I think the one point I was trying to make in sort of 
suggesting the notion of a treaty is that if--the Water Quality 
Agreement calls for a surveillance and monitoring program, but 
it is an agreement. It is a gentlemen's handshake that has 
moral authority, not the legal authority of a treaty. And if 
this were part of a treaty, it would actually be a matter of 
law. It would be done.
    Senator Voinovich. So the reason why you think that you 
would want to have that Water Quality Agreement updated, that 
it could act as the consensus of what it is that both the U.S. 
and Canadian Government would want as far as indicators of what 
you would be measuring?
    Mr. Schornack. Exactly.
    Senator Voinovich. That would be your consensus----
    Mr. Schornack. Right. There isn't----
    Senator Voinovich [continuing]. So the IJC fundamentally, 
then, is the body that is charged with looking after the Great 
Lakes between the United States and Canada, is that correct?
    Mr. Schornack. That is correct, sir.
    Senator Voinovich. And then Mr. Gray works with you and he 
is with the Canadian Federal Government.
    Mr. Schornack. That is right, and we operate as a unitary 
and joint body. We reach our decisions by consensus and do 
joint fact finding as our sort of vehicle for arriving at the 
facts.
    Senator Voinovich. Mr. Jones, what is the Council of Great 
Lakes Governors, which is made of all the governors in the 
Great Lakes States, opinion of this legislation that we have? 
How would you feel about working with, and what is your 
relationship with, the Great Lakes National Program Office?
    Mr. Jones. Senator, the Great Lakes Governors, in a sense, 
think that there are different functions. We believe that it 
should be the governors of the Great Lakes States that set the 
prioritization for a plan. Earlier, with the earlier panel, you 
talked about the indices that we have in Ohio. What we did was 
build off the index that was released in 1998, and in 2000, we 
released the Lake Erie Protection and Restoration Plan, which 
takes the index measurements and specifically assigns--there 
are 84 specific tasks that match up with various indices and 
there is a State agency responsible for implementing that 
specific task. We are now in the process, now that we have the 
initial index and the restoration----
    Senator Voinovich. Who are you talking about now? You are 
talking about----
    Mr. Jones. This is the State of Ohio.
    Senator Voinovich. OK.
    Mr. Jones. But I think it sets a framework that I think is 
important, because now we are going back for the second round 
to look at the index that was completed in 1998. So we have to 
measure again. But critically important is the overarching 
plan. The overarching plan has to be built on the data that you 
collect and it has to be built upon the priorities that you 
set.
    We speak of the Great Lakes. There are fairly significant 
differences between the Great Lakes and the Everglades. For 
example, the Everglades is essentially one ecosystem in one 
State. Here, you have a number of very different ecosystems in 
a number of different States, three different EPA Regions, and 
two Canadian provinces. So the complexities are that much more 
there and it is that much more important to get the type of 
local input that you are well able to do through the governors, 
through the State Government, reaching out.
    We have already been in discussion with the Great Lakes 
mayors, and one of the things we did in Ohio was--once we had 
the index, we went out and did 16 different focus groups across 
the lake, from Ashtabula to Toledo, to get input on what are 
the significant things you want us to measure to be able to 
answer the question. As Mr. Schornack says, what people want to 
know is, can I drink the water? Can I swim? So it is that 
process of building the plan and prioritizing your work and 
then measuring the work that you do to produce results at the 
end.
    I guess I see the GLNPO not so much as directing, but in 
coordinating, perhaps, and being the central point of focus, 
but I really think the States need to drive the prioritization 
because the States are going to be much more sensitive to, for 
example, the local concern about E. coli, which runs the 
gamut--I mean, all of the Great Lakes have that issue in one 
form or another, but there may be a local specific need to 
address.
    Senator Voinovich. The problem is, and that is one of the 
things that I am talking about, how do you organize this thing. 
That is going to take a lot of brainstorming, a lot of people 
sitting down. I suggested to Ms. Wooster that maybe we ought to 
have a day where we get all the groups together and just start 
talking about how would you organize this thing, and the 
governors want to do this.
    But you know and I know that I happen to be really 
interested in Lake Erie because it was my baby when I was in 
the State legislature and I followed it. A lot of governors 
really aren't that concerned about their Great Lake, whatever 
it is. It is not the driving factor. Maybe in Illinois, but 
there are some other places, maybe New York--and then you get 
new governors in, and they are so busy right now just trying to 
stay above water in terms of their finances that the last thing 
they are thinking about probably is whatever Great Lake they 
are responsible for.
    So you need some kind of a continuing effort that is in 
place to keep this going, and I would really be interested in 
what the Council of Great Lakes Governors would say about--is 
this the same thing with, like, the IJC? When I was there, we 
would invite the premiers down to be involved with us when we 
were doing these things. I am sure that the premiers have been 
involved now in, what do we call it, the withdrawal, what is 
the name of that?
    Mr. Jones. The Annex 2000.
    Senator Voinovich. The Annex 2000. I am sure you are 
consulting with the premiers involved in that. But, Dennis, I 
don't think we went to the IJC and maybe we should have done 
that as kind of saying, you are the international group. How do 
we interface with you in terms of this?
    I am just saying that to figure out how all this is to get 
done is going to be a real challenge. Would the governors not 
be comfortable if the Great Lakes Office were the one that 
would be the kind of orchestra leader and coordinator of this 
thing?
    Mr. Jones. Mr. Chairman, the way I understand the 
legislation, I think it is a good first step because it sets up 
an advisory board and a Federal coordinating agency, and I 
think the manner in which you establish the advisory board and 
the level of input that board has can meet the concerns of the 
governors in terms of providing our prioritization, the 
governors' prioritization of the work that needs to be done and 
at the same time allow the Federal agency to coordinate it.
    I think the framework with this bill, and I think why it is 
so encouraging to see this legislation, is there to do what you 
say, and it is, I mean, just in the State of Ohio, we have the 
Lake Erie Commission to try to coordinate the activities of six 
different State agencies for our part of one of the Great 
Lakes.
    So it is certainly not a simple task, but I think perhaps 
what difference there is really seems to be a tremendous amount 
of momentum to move forward with this. I think one of the 
things you have heard this morning from a lot of different 
people is not nay-saying and negative, but we are all here to 
try to make this work and your leadership and Senators DeWine 
and Levin and the Members of the Subcommittee, I think that is 
what can help us put this giant group of people together.
    Senator Voinovich. Well, it is going to be a major effort, 
but we all agree that it is--we need a symbiotic relationship 
and the more we can cooperate then the better off we will be to 
figure out how to get this done.
    Dennis Schornack was saying about the Great Lakes Water 
Quality Agreement needing to be updated. It seems to me that if 
you did that and got involved in it, that could be the 
standard, in other words, instead of having you do your thing 
and then the governors come along and say, well, we are going 
to do something else, and then the EPA comes up--we would kind 
of agree and say, they are working on it. They have got the 
resources and they have got to do it.
    The other thing that I think when talking about money is 
that--I am very much involved in the Everglades--is that it is 
a 50-50 proposition, as you know, in terms of funding. So if 
you went ahead and you started investing money, you would have 
to have priorities about where are we going to put the money 
and then is there going to be some State participation in it or 
is this just going to be all the Federal Government. That would 
have to be sorted out.
    Those are questions that are very important, and getting 
back also to some of the stuff that is just basic Federal 
responsibility. We talk about sewers and Safe Drinking Water 
and Clean Water. There is a big area here where there is a lot 
more effort that has to be made. There are certain systemic 
things that are fundamental to restoration of the Great Lakes 
and that has got a lot to do with just some other Federal 
programs that need to be looked at and folded in, as well as, I 
am sure, in terms of Canada and some of what they have got to 
do.
    Does anyone else have any other comments before we close 
this hearing, adjourn it?
    [No response.]
    Senator Voinovich. I really thank you very much for coming 
and I am excited about the prospects. You will be hearing more 
from us and certainly you will be getting some questions from 
me. Thank you very much.
    The meeting is adjourned.
    [Whereupon, at 12:08 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8934.001

[GRAPHIC] [TIFF OMITTED] T8934.002

[GRAPHIC] [TIFF OMITTED] T8934.003

[GRAPHIC] [TIFF OMITTED] T8934.004

[GRAPHIC] [TIFF OMITTED] T8934.005

[GRAPHIC] [TIFF OMITTED] T8934.006

[GRAPHIC] [TIFF OMITTED] T8934.007

[GRAPHIC] [TIFF OMITTED] T8934.008

[GRAPHIC] [TIFF OMITTED] T8934.009

[GRAPHIC] [TIFF OMITTED] T8934.010

[GRAPHIC] [TIFF OMITTED] T8934.011

[GRAPHIC] [TIFF OMITTED] T8934.012

[GRAPHIC] [TIFF OMITTED] T8934.013

[GRAPHIC] [TIFF OMITTED] T8934.014

[GRAPHIC] [TIFF OMITTED] T8934.015

[GRAPHIC] [TIFF OMITTED] T8934.016

[GRAPHIC] [TIFF OMITTED] T8934.017

[GRAPHIC] [TIFF OMITTED] T8934.018

[GRAPHIC] [TIFF OMITTED] T8934.019

[GRAPHIC] [TIFF OMITTED] T8934.020

[GRAPHIC] [TIFF OMITTED] T8934.021

[GRAPHIC] [TIFF OMITTED] T8934.022

[GRAPHIC] [TIFF OMITTED] T8934.023

[GRAPHIC] [TIFF OMITTED] T8934.024

[GRAPHIC] [TIFF OMITTED] T8934.025

[GRAPHIC] [TIFF OMITTED] T8934.026

[GRAPHIC] [TIFF OMITTED] T8934.027

[GRAPHIC] [TIFF OMITTED] T8934.028

[GRAPHIC] [TIFF OMITTED] T8934.029

[GRAPHIC] [TIFF OMITTED] T8934.030

[GRAPHIC] [TIFF OMITTED] T8934.031

[GRAPHIC] [TIFF OMITTED] T8934.032

[GRAPHIC] [TIFF OMITTED] T8934.033

[GRAPHIC] [TIFF OMITTED] T8934.034

[GRAPHIC] [TIFF OMITTED] T8934.035

[GRAPHIC] [TIFF OMITTED] T8934.036

[GRAPHIC] [TIFF OMITTED] T8934.037

[GRAPHIC] [TIFF OMITTED] T8934.038

[GRAPHIC] [TIFF OMITTED] T8934.039

[GRAPHIC] [TIFF OMITTED] T8934.040

[GRAPHIC] [TIFF OMITTED] T8934.041

[GRAPHIC] [TIFF OMITTED] T8934.042

[GRAPHIC] [TIFF OMITTED] T8934.043

[GRAPHIC] [TIFF OMITTED] T8934.044

[GRAPHIC] [TIFF OMITTED] T8934.045

[GRAPHIC] [TIFF OMITTED] T8934.046

[GRAPHIC] [TIFF OMITTED] T8934.047

[GRAPHIC] [TIFF OMITTED] T8934.048

[GRAPHIC] [TIFF OMITTED] T8934.049

[GRAPHIC] [TIFF OMITTED] T8934.050

[GRAPHIC] [TIFF OMITTED] T8934.051

[GRAPHIC] [TIFF OMITTED] T8934.052

[GRAPHIC] [TIFF OMITTED] T8934.053

[GRAPHIC] [TIFF OMITTED] T8934.054

[GRAPHIC] [TIFF OMITTED] T8934.055

[GRAPHIC] [TIFF OMITTED] T8934.056

[GRAPHIC] [TIFF OMITTED] T8934.057

[GRAPHIC] [TIFF OMITTED] T8934.058

[GRAPHIC] [TIFF OMITTED] T8934.059

[GRAPHIC] [TIFF OMITTED] T8934.060

[GRAPHIC] [TIFF OMITTED] T8934.061

[GRAPHIC] [TIFF OMITTED] T8934.062

[GRAPHIC] [TIFF OMITTED] T8934.063

[GRAPHIC] [TIFF OMITTED] T8934.064

[GRAPHIC] [TIFF OMITTED] T8934.065

[GRAPHIC] [TIFF OMITTED] T8934.066

[GRAPHIC] [TIFF OMITTED] T8934.067

[GRAPHIC] [TIFF OMITTED] T8934.068

[GRAPHIC] [TIFF OMITTED] T8934.069

[GRAPHIC] [TIFF OMITTED] T8934.070

[GRAPHIC] [TIFF OMITTED] T8934.071

[GRAPHIC] [TIFF OMITTED] T8934.072

[GRAPHIC] [TIFF OMITTED] T8934.073

[GRAPHIC] [TIFF OMITTED] T8934.074

[GRAPHIC] [TIFF OMITTED] T8934.075

[GRAPHIC] [TIFF OMITTED] T8934.076

[GRAPHIC] [TIFF OMITTED] T8934.077

[GRAPHIC] [TIFF OMITTED] T8934.078

[GRAPHIC] [TIFF OMITTED] T8934.079

[GRAPHIC] [TIFF OMITTED] T8934.080

[GRAPHIC] [TIFF OMITTED] T8934.081

[GRAPHIC] [TIFF OMITTED] T8934.082

[GRAPHIC] [TIFF OMITTED] T8934.083

[GRAPHIC] [TIFF OMITTED] T8934.084

[GRAPHIC] [TIFF OMITTED] T8934.085

[GRAPHIC] [TIFF OMITTED] T8934.086

[GRAPHIC] [TIFF OMITTED] T8934.087

[GRAPHIC] [TIFF OMITTED] T8934.088

[GRAPHIC] [TIFF OMITTED] T8934.089

[GRAPHIC] [TIFF OMITTED] T8934.090

[GRAPHIC] [TIFF OMITTED] T8934.091

[GRAPHIC] [TIFF OMITTED] T8934.092

[GRAPHIC] [TIFF OMITTED] T8934.093

[GRAPHIC] [TIFF OMITTED] T8934.094

[GRAPHIC] [TIFF OMITTED] T8934.095

[GRAPHIC] [TIFF OMITTED] T8934.096

[GRAPHIC] [TIFF OMITTED] T8934.097

[GRAPHIC] [TIFF OMITTED] T8934.098

[GRAPHIC] [TIFF OMITTED] T8934.099

[GRAPHIC] [TIFF OMITTED] T8934.100

[GRAPHIC] [TIFF OMITTED] T8934.101

[GRAPHIC] [TIFF OMITTED] T8934.102

[GRAPHIC] [TIFF OMITTED] T8934.103

[GRAPHIC] [TIFF OMITTED] T8934.104

[GRAPHIC] [TIFF OMITTED] T8934.105

[GRAPHIC] [TIFF OMITTED] T8934.106

[GRAPHIC] [TIFF OMITTED] T8934.107

[GRAPHIC] [TIFF OMITTED] T8934.108

[GRAPHIC] [TIFF OMITTED] T8934.109

[GRAPHIC] [TIFF OMITTED] T8934.110

[GRAPHIC] [TIFF OMITTED] T8934.111

[GRAPHIC] [TIFF OMITTED] T8934.112

[GRAPHIC] [TIFF OMITTED] T8934.113

[GRAPHIC] [TIFF OMITTED] T8934.114

[GRAPHIC] [TIFF OMITTED] T8934.115

[GRAPHIC] [TIFF OMITTED] T8934.116

[GRAPHIC] [TIFF OMITTED] T8934.117

[GRAPHIC] [TIFF OMITTED] T8934.118

[GRAPHIC] [TIFF OMITTED] T8934.119

[GRAPHIC] [TIFF OMITTED] T8934.120

[GRAPHIC] [TIFF OMITTED] T8934.121

[GRAPHIC] [TIFF OMITTED] T8934.122

[GRAPHIC] [TIFF OMITTED] T8934.123

[GRAPHIC] [TIFF OMITTED] T8934.124

[GRAPHIC] [TIFF OMITTED] T8934.125

[GRAPHIC] [TIFF OMITTED] T8934.126

[GRAPHIC] [TIFF OMITTED] T8934.127

[GRAPHIC] [TIFF OMITTED] T8934.128

[GRAPHIC] [TIFF OMITTED] T8934.129

[GRAPHIC] [TIFF OMITTED] T8934.130

[GRAPHIC] [TIFF OMITTED] T8934.131

[GRAPHIC] [TIFF OMITTED] T8934.132

[GRAPHIC] [TIFF OMITTED] T8934.133

[GRAPHIC] [TIFF OMITTED] T8934.134

[GRAPHIC] [TIFF OMITTED] T8934.135

[GRAPHIC] [TIFF OMITTED] T8934.136

[GRAPHIC] [TIFF OMITTED] T8934.137

[GRAPHIC] [TIFF OMITTED] T8934.138

[GRAPHIC] [TIFF OMITTED] T8934.139

[GRAPHIC] [TIFF OMITTED] T8934.140

[GRAPHIC] [TIFF OMITTED] T8934.141

[GRAPHIC] [TIFF OMITTED] T8934.142

[GRAPHIC] [TIFF OMITTED] T8934.143

[GRAPHIC] [TIFF OMITTED] T8934.144

[GRAPHIC] [TIFF OMITTED] T8934.145

[GRAPHIC] [TIFF OMITTED] T8934.146

[GRAPHIC] [TIFF OMITTED] T8934.147

[GRAPHIC] [TIFF OMITTED] T8934.148

[GRAPHIC] [TIFF OMITTED] T8934.149

[GRAPHIC] [TIFF OMITTED] T8934.150

[GRAPHIC] [TIFF OMITTED] T8934.151

[GRAPHIC] [TIFF OMITTED] T8934.152

[GRAPHIC] [TIFF OMITTED] T8934.153

[GRAPHIC] [TIFF OMITTED] T8934.154

[GRAPHIC] [TIFF OMITTED] T8934.155

[GRAPHIC] [TIFF OMITTED] T8934.156

[GRAPHIC] [TIFF OMITTED] T8934.157

[GRAPHIC] [TIFF OMITTED] T8934.158

[GRAPHIC] [TIFF OMITTED] T8934.159

[GRAPHIC] [TIFF OMITTED] T8934.160

[GRAPHIC] [TIFF OMITTED] T8934.161

[GRAPHIC] [TIFF OMITTED] T8934.162

[GRAPHIC] [TIFF OMITTED] T8934.163

[GRAPHIC] [TIFF OMITTED] T8934.164

[GRAPHIC] [TIFF OMITTED] T8934.165

[GRAPHIC] [TIFF OMITTED] T8934.166

[GRAPHIC] [TIFF OMITTED] T8934.167

[GRAPHIC] [TIFF OMITTED] T8934.168

[GRAPHIC] [TIFF OMITTED] T8934.169

[GRAPHIC] [TIFF OMITTED] T8934.170

[GRAPHIC] [TIFF OMITTED] T8934.171

[GRAPHIC] [TIFF OMITTED] T8934.172

[GRAPHIC] [TIFF OMITTED] T8934.173

[GRAPHIC] [TIFF OMITTED] T8934.174

[GRAPHIC] [TIFF OMITTED] T8934.175

[GRAPHIC] [TIFF OMITTED] T8934.176

[GRAPHIC] [TIFF OMITTED] T8934.177

[GRAPHIC] [TIFF OMITTED] T8934.178

[GRAPHIC] [TIFF OMITTED] T8934.179

[GRAPHIC] [TIFF OMITTED] T8934.180

[GRAPHIC] [TIFF OMITTED] T8934.181

[GRAPHIC] [TIFF OMITTED] T8934.182

[GRAPHIC] [TIFF OMITTED] T8934.183

[GRAPHIC] [TIFF OMITTED] T8934.184

[GRAPHIC] [TIFF OMITTED] T8934.185

[GRAPHIC] [TIFF OMITTED] T8934.186

[GRAPHIC] [TIFF OMITTED] T8934.187

[GRAPHIC] [TIFF OMITTED] T8934.188

[GRAPHIC] [TIFF OMITTED] T8934.189

[GRAPHIC] [TIFF OMITTED] T8934.190

[GRAPHIC] [TIFF OMITTED] T8934.191

[GRAPHIC] [TIFF OMITTED] T8934.192

[GRAPHIC] [TIFF OMITTED] T8934.193

[GRAPHIC] [TIFF OMITTED] T8934.194

[GRAPHIC] [TIFF OMITTED] T8934.195

[GRAPHIC] [TIFF OMITTED] T8934.196

[GRAPHIC] [TIFF OMITTED] T8934.197

[GRAPHIC] [TIFF OMITTED] T8934.198

[GRAPHIC] [TIFF OMITTED] T8934.199

[GRAPHIC] [TIFF OMITTED] T8934.200

[GRAPHIC] [TIFF OMITTED] T8934.201

[GRAPHIC] [TIFF OMITTED] T8934.202

[GRAPHIC] [TIFF OMITTED] T8934.203

[GRAPHIC] [TIFF OMITTED] T8934.204

[GRAPHIC] [TIFF OMITTED] T8934.205

[GRAPHIC] [TIFF OMITTED] T8934.206

[GRAPHIC] [TIFF OMITTED] T8934.207

[GRAPHIC] [TIFF OMITTED] T8934.208

[GRAPHIC] [TIFF OMITTED] T8934.209

[GRAPHIC] [TIFF OMITTED] T8934.210

[GRAPHIC] [TIFF OMITTED] T8934.211

[GRAPHIC] [TIFF OMITTED] T8934.212

[GRAPHIC] [TIFF OMITTED] T8934.213

[GRAPHIC] [TIFF OMITTED] T8934.214

[GRAPHIC] [TIFF OMITTED] T8934.215

[GRAPHIC] [TIFF OMITTED] T8934.216

[GRAPHIC] [TIFF OMITTED] T8934.217

[GRAPHIC] [TIFF OMITTED] T8934.218

[GRAPHIC] [TIFF OMITTED] T8934.219

[GRAPHIC] [TIFF OMITTED] T8934.220

[GRAPHIC] [TIFF OMITTED] T8934.221

[GRAPHIC] [TIFF OMITTED] T8934.222

[GRAPHIC] [TIFF OMITTED] T8934.223

[GRAPHIC] [TIFF OMITTED] T8934.224

[GRAPHIC] [TIFF OMITTED] T8934.225

[GRAPHIC] [TIFF OMITTED] T8934.226

[GRAPHIC] [TIFF OMITTED] T8934.227

[GRAPHIC] [TIFF OMITTED] T8934.228

[GRAPHIC] [TIFF OMITTED] T8934.229

[GRAPHIC] [TIFF OMITTED] T8934.230

[GRAPHIC] [TIFF OMITTED] T8934.231

[GRAPHIC] [TIFF OMITTED] T8934.232

[GRAPHIC] [TIFF OMITTED] T8934.233

[GRAPHIC] [TIFF OMITTED] T8934.234

[GRAPHIC] [TIFF OMITTED] T8934.235

[GRAPHIC] [TIFF OMITTED] T8934.236

[GRAPHIC] [TIFF OMITTED] T8934.237

[GRAPHIC] [TIFF OMITTED] T8934.238

[GRAPHIC] [TIFF OMITTED] T8934.239

[GRAPHIC] [TIFF OMITTED] T8934.240

[GRAPHIC] [TIFF OMITTED] T8934.241

[GRAPHIC] [TIFF OMITTED] T8934.242

[GRAPHIC] [TIFF OMITTED] T8934.243

    Question for Mr. Chris Jones
    Ohio Environmental Protection Agency Director
    for the Council of Great Lakes Governors

        Q. As I stated during the hearing, I think indicators for all 
        of the Great Lakes are a very important piece to protecting and 
        restoring them. However, until we get this done, we need to a 
        least continue the work we started in 1998 with the release of 
        the Lake Erie Water Quality Index. What monitoring are we 
        doing? When will the Index be updated? What do you expect will 
        be the results--for example, has Lake Erie improved since 1998?

        As you know, I recently wrote the Council of Great Lakes 
        Governors urging them to take the lead in developing a 
        comprehensive restoration plan for the Great Lakes and to 
        complete their work on the Annex by the established deadline of 
        June 2004. When can we expect to receive the Council's 
        priorities for restoration? Does the Council expect to make the 
        deadline for the Annex?

        A. The Council hopes to make draft priorities available for 
        public comment this September. The Water Management Prospect is 
        on schedule to meet the three-year timeline in the Annex.
      

</pre></body></html>
